    TIGTA Semiannual Report to Congress




2     October 1, 2009 - March 31, 2010
TIGTA Semiannual Report to Congress




  October 1, 2009 - March 31, 2010    3
    TIGTA Semiannual Report to Congress




4     October 1, 2009 - March 31, 2010
                                        TIGTA Semiannual Report to Congress



                                                Table of Contents 

Mission and Vision Statement ................................................................................................... 1


Inspector General’s Message to Congress ............................................................................... 3 


TIGTA’s Highlights ..................................................................................................................... 7


Executive Summary ............................................................................................................... 11 


TIGTA’s Profile ........................................................................................................................... 13

    Statutory Mandate ................................................................................................................. 13 

    Introduction to Our Organization .......................................................................................... 13

    Organizational Structure ....................................................................................................... 16

    Authorities ............................................................................................................................. 16


Promote the Economy, Efficiency and Effectiveness of Tax Administration .................... 17 

    Modernization of the Internal Revenue Service ................................................................... 17

    Security of the Internal Revenue Service .............................................................................. 19

    Tax Compliance Initiatives ................................................................................................... 22

    Providing Quality Taxpayer Service Operations .................................................................. 25

    Erroneous and Improper Payments ....................................................................................... 26

    Taxpayer Protection and Rights ............................................................................................ 27

    Leveraging Data to Improve Program Effectiveness and Reduce Costs .............................. 29 


Protect the Integrity of Tax Administration ........................................................................... 31 

     Employee and Infrastructure Security ................................................................................... 34

     Armed Escort Activities ........................................................................................................ 35

     Employee Integrity Investigations ........................................................................................ 35

     External Attempts to Corrupt Tax Administration ............................................................... 38

     Tax Practitioner Investigations ............................................................................................. 42

     Procurement Fraud Investigations ........................................................................................ 44


Advancing Oversight of America’s Tax System ..................................................................... 47


American Recovery and Reinvestment Act of 2009 ............................................................... 51


Congressional Testimony ...................................................................................................... 55 


An Organization that Values Its People ................................................................................... 57


Audit Statistical Reports ............................................................................................................ 61

     Reports with Questioned Costs ............................................................................................. 61

     Reports with Recommendations that Funds Be Put to Better Use ........................................ 62

     Reports with Additional Quantifiable Impact on Tax Administration ................................. 63



                                            October 1, 2009 - March 31, 2010                                                               5
                                      TIGTA Semiannual Report to Congress



Investigations Statistical Reports .............................................................................................. 65 

     Significant Investigative Achievements ................................................................................ 65

     Status of Closed Criminal Investigations .............................................................................. 66


Appendices
Appendix I – Statistical Reports – Other ................................................................................. 67 

    Audit Reports with Significant Unimplemented Corrective Actions ................................... 67

    Other Statistical Reports ....................................................................................................... 75 


Appendix II – Audit Products .................................................................................................... 77


Appendix III – TIGTA’s Statutory Reporting Requirements .............................................. 81


Appendix IV – Section 1203 Standards .................................................................................... 85


Appendix V – Data Tables Provided by the Internal Revenue Service .............................. 87 

    Internal Revenue Service Memorandum ............................................................................... 87

    Report of Employee Misconduct, Summary by Disposition Groups .................................... 88

    Report of Employee Misconduct, National Summary .......................................................... 89 

    Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ...................... 90


Glossary of Acronyms ................................................................................................................. 91 





6                                         October 1, 2009 - March 31, 2010
                             TIGTA Semiannual Report to Congress


                                 TIGTA’s Highlights 


Examples of high profile cases                        This is a joint investigation with multiple
from the Office of Investigations:                    other Offices of Inspectors General.

U.S. Government Agrees to Settlement                  David Leoce Indicted For False
Amounts in Ongoing Zylon Fabric                       Statements and Stealing Government
Investigation                                         Compensation

As part of the United States                          On November 4, 2009, David Leoce, a
Government’s larger investigation of the              former Supervisory Special Agent with
use of Zylon fabric in body armor                     the IRS Criminal Investigation Division
purchased by the United States for                    (CID), was indicted on three counts of
Federal agencies, Itochu Corporation of               false statements and one count of
Japan and its American subsidiary,                    stealing government compensation.
Itochu International Incorporated, and                Leoce received approximately $772,301
Lincoln Fabrics Limited and its                       in workers’ compensation benefits, tax
American subsidiary have entered into                 free, from approximately 1997 through
agreements to resolve claims under the                2008. As a condition of receiving
False Claims Act. Itochu Corp. has                    Federal workers’ compensation benefits,
agreed to pay $6.75 million and Lincoln               Leoce was required to submit an annual
Fabrics Ltd. has agreed to pay $4 million             affidavit of earnings. Form EN 1032
to the United States.1                                (Claim for Continuing Compensation on
                                                      Account of Disability) is the form that is
The United States alleged that the Zylon              used for that purpose. In each Form EN
fabric in the body armor lost its ballistic           1032 submitted from 2005 to 2008, he
capability quickly, especially when                   claimed not to be involved in any
exposed to heat and humidity. The                     business enterprises and not to have
United States alleged that Lincoln was                received any business compensation or
aware of the defective nature of the                  income.
Zylon fabric by at least December 2001,
but continued to sell Zylon for use in                On February 3, 2005, Leoce filed an
ballistic armor until August 2005. The                application for registration of a fictitious
United States also alleged that the Itochu            name with the State of Florida as the
companies were aware that the fiber                   owner of Scratch the Surface Tattoo II.
degraded quickly over time and that the               On August 15, 2008, Leoce executed a
companies knew this degradation                       Membership Interest in the Purchase and
rendered the bulletproof vests containing             Sale Agreement in which he
Zylon unfit for use.2                                 acknowledged owning, collectively with
                                                      his spouse, 50 percent of the
                                                      membership interests in a Florida limited
                                                      liability company, Leoce & Martin
1
  Source: U.S. Department of Justice Press Release    Enterprises, d/b/a Scratch the Surface
dated February 12, 2010 and U.S. Department of        Tattoo II. In the purchase and sale
Justice Press Release dated December 7, 2009.         agreement, Leoce sold his interest in the
2
  Ibid.

                                 October 1, 2009 - March 31, 2010                                    7
                             TIGTA Semiannual Report to Congress


company for a specified amount and                    Registered User Portal (RUP) to provide
resigned as manager of Leoce & Martin                 Web access to the IRS’s e-services
Enterprises.                                          applications and provide outside tax
                                                      professionals with the ability to submit
From at least February 3, 2005 to August              and retrieve tax-related information and
15, 2008, Leoce was co-owner and                      electronically file (e-file) tax returns.
manager of Leoce & Martin Enterprises,                Because these external users have the
d/b/a Scratch the Surface Tattoo II.                  ability to access taxpayer data, modify
Leoce never reported his involvement                  electronic tax returns prior to
with this business in any Form EN 1032                transmitting them to the IRS, and
he submitted from 2005 to 2008.                       download taxpayer data to their
                                                      computers, access controls at the RUP
Between approximately October 27,                     are critical to minimize the risk of
2005 and November 17, 2005, Leoce                     unauthorized access to taxpayers’
submitted a fraudulent Form EN 1032                   personal tax data.
falsely claiming, among other things,
that he was not self-employed in the past             Access to the RUP and e-services
fifteen months, and not paid for any                  applications poses significant risks to the
voluntary or non-voluntary work                       security of taxpayers’ personal data.
activities, in connection with the                    During the IRS’s 2008 Filing Season, 58
application for and receipt of                        percent of all tax returns - nearly 90
compensation and other benefits and                   million of the 155 million tax returns
payments under the Federal Employees’                 filed - were received electronically.
Compensation Act (FECA) benefits, and                 Although some RUP access controls are
in doing so he falsely obtained more                  in place, several other security controls
than $1,000 in such FECA benefits.                    were not implemented. TIGTA made
Leoce submitted fraudulent Forms EN                   several recommendations to improve the
1032 in January 2007 and January 2008.                security of the RUP. IRS officials
Additionally, between February 2005                   agreed with most of the
and mid-August 2008, Leoce knowingly                  recommendations and are taking or have
and willfully embezzled property of the               planned to take appropriate corrective
United States, specifically FECA                      actions.
benefits3.
                                                      The Screening and Monitoring of E-file
Examples of high profile cases                        Providers Has Improved, but More
                                                      Work Is Needed to Ensure the Integrity
from the Office of Audit:
                                                      of the E-file Program
Additional Security Is Needed for Access              The primary means by which the IRS
to the Registered User Portal                         regulates e-file providers are the
                                                      application screening process and the
The use of the Internet is an integral part
                                                      monitoring program. The screening and
of the Internal Revenue Service (IRS)
                                                      monitoring of e-file providers has
mission to deliver top quality service to
                                                      improved, but more work is needed to
all taxpayers. The IRS developed the
                                                      ensure the integrity of the e-file
3
                                                      program. Inadequate screening and
 Source: Middle District of Florida, Orlando
Division Indictment filed November 4, 2009.
                                                      monitoring increases the risk to both the

8                                October 1, 2009 - March 31, 2010
                       TIGTA Semiannual Report to Congress


taxpaying public and the Federal               Examples of high profile cases
Government for potential losses                from the Office of Inspections and
associated with unscrupulous                   Evaluations:
e-file providers. A statistical sample of
97 e-file providers from a population of
13,797 that were active as of August           The Internal Revenue Service
2009, and designated as not-for-profit         Restructuring and Reform Act of 1998
organizations, showed that 18 (19              Was Substantially Implemented but
percent) were erroneously designated.          Challenges Remain
Twelve (12 percent of the sample) of the       This evaluation determined whether the
18 were not subjected to suitability           IRS substantially achieved the goals of
checks. Furthermore, the IRS is not            the IRS Restructuring and Reform Act of
requesting that e-file providers verify        1998 (RRA 98). RRA 98 required the
citizenship status. TIGTA                      IRS to change its organizational culture,
recommended several improvements to            restructure, modernize, and improve
the e-file program.                            taxpayer protection and rights. With a
                                               new focus on taxpayer service, the IRS
Insufficient and Inexperienced Staff           shifted its emphasis from an
Could Reduce the Ability to Detect and         enforcement-first culture to a more
Stop Fraudulent Refunds                        customer-service-oriented culture. It
The Questionable Refund Program is a           also made progress in modernizing its
nationwide, multi-functional program           business processes and computer
designed to detect and stop fraudulent         systems, and provided taxpayers with
claims for refunds on income tax returns.      greater protections and rights. As a
Pre-refund fraud detection activities          result, taxpayers receive more
have been transferred from the Criminal        professional and courteous services to
Investigation Division to the Wage and         assist them in complying with the tax
Investment Division Accounts                   law.
Management function. We are
concerned that staffing may not be             While the IRS has made significant
sufficient, which could reduce the             strides in transforming into a modern
number of fraudulent refunds identified        financial services organization, major
and stopped. Insufficient staffing may         challenges remain. The Business
also reduce the ability of the IRS to          Systems Modernization effort remains a
provide timely assistance to taxpayers         work in progress. In addition, there are
who experience delays in receiving their       human capital management challenges
refunds or who are victims of identity         for issues such as replacing an aging
theft. TIGTA continues to monitor the          workforce, developing a comprehensive
impact of staffing on transitioned             employee-skills gap assessment,
activities during the 2010 Filing Season       measuring the effectiveness of training,
and included results in our 2010 Interim       and implementing a performance-based
Filing Season report and will include          pay system. Finally, in the compliance
results in our 2010 Filing Season report.      arena, estimating noncompliance and
                                               effectively addressing repeat offenders
                                               are continuing challenges.


                          October 1, 2009 - March 31, 2010                                 9
                        TIGTA Semiannual Report to Congress


Examples of significant legislation             changes to the Internal Revenue Code,
reviewed by the Office of Chief                 TIGTA did not identify any provisions
Counsel:                                        that would impose sweeping changes to
                                                tax administration in general.
                                                Furthermore, while the legislation
H.R. 3962, Affordable Health Care for
America Act                                     creates a new Inspector General’s office
                                                and amends the IG Act, the changes do
TIGTA reviewed the Affordable Health            not impact TIGTA or TIGTA’s mission.
Care for America Act (the Act) for its
impact on tax administration and its            S. 2834, Security Clearance
amendment to the Inspector General Act          Modernization and Reporting Act of
(IG Act). Specifically, the Act would:          2009
establish a Health Insurance Exchange
                                                TIGTA reviewed the Security Clearance
Trust Fund within the Department of
                                                Modernization and Reporting Act of
Treasury; amend the Employee
                                                2009, which would make changes to
Retirement Income Security Act of 1974;
                                                security clearance and suitability
and create both an employment tax on
                                                determination reporting and create a
employers who fail to elect and an
                                                Security Clearance and Suitability
excise tax on other failures of electing
                                                Performance Accountability Council.
employers. The Act would also amend
                                                The bill specifies that membership of the
the Internal Revenue Code by adding a
                                                Council shall include a senior officer
new section that addresses healthcare
                                                from the Office of the Director of
related taxes. Such taxes include a tax
                                                National Intelligence, the Department of
on individuals without acceptable health
                                                Defense, and the Office of Personnel
care coverage, healthcare-related taxes,
                                                Management, in addition to other
and returns relating to health insurance
                                                members. TIGTA provided comments
coverage. The Act would amend
                                                on the bill, suggesting that the draft bill
Section 6103 of the Internal Revenue
                                                be changed to include a member of the
Code by adding a new section that
                                                Inspector General community on the
addresses disclosure of return
                                                Council. TIGTA will continue to
information to carry out health insurance
                                                monitor this bill for changes that may
exchange subsidies. The Act dictates that
                                                have an impact on its mission.
provisions of civil law that impose
sanctions with respect to waste, fraud,
                                                              ************
and abuse under Medicare shall also
apply to the public health insurance
option. Lastly, the Act would amend the
IG Act by creating the Office of the
Inspector General for the Health Choices
Administration.
Based upon TIGTA’s review, the bill
contains no provisions that would
materially affect the duties or authorities
of TIGTA or the OIG community in
general. In addition, while the
legislation provides for numerous


10                         October 1, 2009 - March 31, 2010
                                  TIGTA Semiannual Report to Congress


                                     Executive Summary
The following table shows the statistical highlights of the Treasury Inspector General for Tax
Administration (TIGTA) for this semiannual reporting period from October 1, 2009 through
March 31, 2010.
                      Number of                                                                        Regulations/
                      Audit                        Increased/        Number of        Number of        Legislative
                      Reports      Cost Savings    Protected         Investigations   Investigations   Requests
                      Completed    Identified      Revenue           Opened           Closed           Reviewed
 October 30, 2009 –
 March 31, 2010           43         $69 million     $4.86 billion        1,913            1,638             303

 “This first half of the fiscal year represents one of the most difficult economic times this
 country has ever faced. By implementing the provisions of the American Recovery and
 Reinvestment Act of 2009, the IRS is providing much-needed tax relief. It is imperative that we
 at TIGTA carry out our mission to promote the effectiveness and integrity of tax administration
 to the best of our ability. We will continue to dedicate ourselves to this most important service
 on behalf of the American people.” - J. Russell George, Inspector General


Investigations:                                                 to provide an excellent return on investment
TIGTA special agents continued the vital                        to American taxpayers. During this six-
work of protecting the integrity of tax                         month reporting period, OA issued 43 audit
administration. The Office of Investigations                    reports that identified more than $4.96
(OI) processed 4,323 complaints, resulting                      billion in potential cost savings reported in
in 1,913 investigations opened. Vigilant                        the following categories: funds that could
work against extortion, bribery, contractor                     be put to better use, increased or protected
fraud and misconduct, theft, taxpayer                           revenue, taxpayer rights and entitlements,
abuses, false statements, financial fraud,                      and inefficient uses of resources. TIGTA
potential loss of tax liability, and other                      audits provided taxpayers with $131 in
criminal activity has saved taxpayers over                      benefits for each dollar invested in the
$61 million. Forty-seven percent of the                         Office of Audit during this period.
1,700 final closed investigations generated
793 cases of employee misconduct referred                       Inspections and Evaluations:
for action and 97 cases accepted for criminal                   TIGTA established the Inspections and
prosecution. Furthermore, during the                            Evaluations (I&E) office to further facilitate
reporting period, TIGTA provided 13 armed                       tax administration oversight. During this
escorts.                                                        six-month reporting period, I&E reported on
                                                                several pertinent issues, including the
Audits:                                                         American Recovery and Reinvestment Act of
TIGTA’s auditors not only focus on the                          2009 (Recovery Act), IRS’s Implementation
economy and efficiency of IRS operations,                       of the OMB Guidelines for ARRA, and
but also ensure that taxpayers’ rights are                      Inspection of the IRS’s Pandemic Influenza
protected and that taxpayers are adequately                     Preparedness Plan - Phase I.
served. The Office of Audit (OA) continues


                                    October 1, 2009 - March 31, 2010                                                  11
     TIGTA Semiannual Report to Congress




12     October 1, 2009 - March 31, 2010
                          TIGTA Semiannual Report to Congress



                                   TIGTA’s Profile


T      IGTA provides independent
       oversight of Treasury Department
matters involving IRS activities, the IRS
                                                             Statutory Mandate
Oversight Board, and the IRS Office of               •	 Protect against external attempts to
Chief Counsel. Although TIGTA is placed                 corrupt or threaten IRS employees.
organizationally within the Department of the
Treasury and it reports to the Secretary of the      •	 Provide policy direction and
Treasury and to Congress, TIGTA functions               conduct, supervise, and coordinate
independently from the Departmental Offices             audits and investigations related to
and all other offices and bureaus within the            IRS programs and operations.
Department.                                          •	 Review existing and proposed
                                                        legislation and regulations related to
TIGTA’s work is devoted to all aspects of               IRS programs and operations, and
activity related to the Federal tax system as           make recommendations concerning
administered by the IRS. By identifying and             the impact of such legislation or
addressing IRS’s management challenges,                 regulations.
implementing the President’s Management              •	 Promote economy and efficiency in
Agenda and the priorities of the Department             the administration of tax laws.
of the Treasury, TIGTA protects the public’s
                                                     •	 Prevent and detect fraud and abuse
confidence in the tax system.
                                                        in IRS programs and operations.
TIGTA conducts audits and investigations             •	 Inform the Secretary of the
designed to:                                            Treasury and Congress of
                                                        problems and deficiencies identified
   •	 Promote the economy, efficiency,                  and of the progress made in
      and effectiveness of tax                          resolving them.
      administration; and
   •	 Protect the integrity of tax 

      administration. 

                                                    Immediate Office of the Inspector
                                                    General
Introduction to Our
                                                    The immediate Office of the Inspector
Organization                                        General provides the Inspector General: with
TIGTA’s organizational structure is                 staff assistance on high profile issues facing
comprised of the immediate Office of the            the Nation’s system of tax administration.
Inspector General and five functional               The immediate Office includes the Principal
offices: the Office of Audit; the Office of         Deputy Inspector General; the Office of
Investigations; the Office of Inspections and       Communications, which primarily oversees
Evaluations; the Office of Chief Counsel;           communications with Congress and the
and the Office of Mission Support (see chart        media, as well as with external stakeholders;
on page 16).


                             October 1, 2009 - March 31, 2010                               13
                            TIGTA Semiannual Report to Congress


and the Equal Employment Opportunity                progressive-performance model consisting
Program Manager.                                    of three primary areas of responsibility:
                                                    employee integrity; employee and
Office of Audit                                     infrastructure security; and external attempts
                                                    to corrupt tax administration. The use of the
The Office of Audit identifies opportunities        performance model enables OI to direct its
to improve the administration of the                crucial resources to the most critical areas.
Nation’s tax laws by conducting
comprehensive, independent performance              A critical element of OI’s employee security
and financial audits of IRS programs,               program consists of providing armed escorts
operations, and activities to:                      for IRS employees who are required to have
                                                    personal contact with known or suspected
     •	 Assess efficiency, economy, 
               dangerous taxpayers. Such encounters are
        effectiveness, and program
                 stressful to IRS employees, and TIGTA’s
        accomplishment; 
                           armed presence enables them to perform
     •	 Ensure compliance with applicable           their duties with confidence that their safety
        laws and regulations; and                   will not be compromised.
     •	 Prevent and detect waste, fraud, and
        abuse.                                      Office of Inspections and Evaluations
The Audit program is comprised of reviews           TIGTA’s Office of Inspections and
mandated by statute or regulations, as well         Evaluations provides TIGTA with additional
as reviews identified through Audit’s               flexibility, capacity, and capability to
planning and evaluation process. OA                 produce value-added products and services
strategically evaluates IRS programs,               to improve tax administration.
activities and functions so that resources are      Inspections will usually be more limited in
expended in the areas of highest                    scope and will be completed in a more
vulnerability to the Nation’s tax system.           compressed period than a traditional audit.
TIGTA’s OA program is presented in the              Evaluations often result in recommendations
Annual Audit Plan, which is published at the        to streamline operations, enhance data
beginning of each fiscal year.                      quality, and minimize inefficient and
                                                    ineffective programs.
Office of Investigations
                                                    I&E seeks to nurture new and expansive
The Office of Investigations is charged with        approaches to independent and objective
protecting the integrity of tax administration.     oversight of IRS programs and operations.
OI investigates allegations related to waste,       Its work is not a substitute for audits and
fraud, abuse, and mismanagement involving           investigations; in fact, its findings may
IRS programs and operations, and IRS                result in subsequent audits and/or
employee misconduct. OI also strives to             investigations.
detect and prevent IRS internal misconduct
and external manipulation of tax                    Office of Chief Counsel
administration through its proactive
investigative initiatives program and               The Office of Chief Counsel provides legal
presentations to IRS employees, tax                 guidance, advice, and disclosure services to
practitioners, and other community groups.          support TIGTA’s accomplishment of its
TIGTA’s investigations are based on a               mission. The Office is comprised of


14                           October 1, 2009 - March 31, 2010
                          TIGTA Semiannual Report to Congress


attorneys, analysts, and support personnel          aspects of human capital planning and
providing a full range of legal and                 support, budget formulation and execution,
disclosure-related services to the other            information technology services, and
functions.                                          administrative operations. The Office of
                                                    Mission Support also supports TIGTA’s
The attorneys in the legal branches provide         mission by facilitating strategic planning,
independent legal analysis, advice, and             coordinating performance management as
assistance to TIGTA’s senior management,            mandated by the Government Performance
as well as to the offices of Investigations,        and Results Act, and ensuring compliance
Audit, Inspections and Evaluations, and             with Inspector General Act reporting
Mission Support to accomplish TIGTA’s               requirements.
statutory mandate to promote the economy,
efficiency and effectiveness of tax
                                                                  ************
administration while protecting the integrity
of tax administration. Members of the legal
staff review proposed or existing regulations
and laws affecting tax administration and
their impact on TIGTA and are involved in
all legal matters affecting TIGTA and its
stakeholders. As agency counsel, the legal
staff: manages TIGTA’s ethics program to
ensure high ethical standards for all TIGTA
employees; reviews claims, debt collection,
and procurement activities; serves as
counsel in administrative litigation; and
assists the Department of Justice in litigation
in which TIGTA is a party or witness. The
analysts in the Disclosure Branch: process
all Freedom of Information Act and Privacy
Act requests received by TIGTA; review all
referrals to State and local law enforcement
agencies; determine the disclosability of
TIGTA’s final audit reports for posting on
TIGTA’s Web site; and prepare testimony
authorizations for TIGTA employees who
are subpoenaed or requested to testify on
matters of official business.

Office of Mission Support
The Office of Mission Support delivers
integrated management services to all of
TIGTA’s business units. This includes all




                             October 1, 2009 - March 31, 2010                             15
                                     TIGTA Semiannual Report to Congress




                                            Organizational Structure 


                                               Inspector General

                                                Principal Deputy
                                               Inspector General




                                                    Deputy
   Deputy                     Deputy               Inspector                Associate                     Chief
  Inspector                  Inspector            General for               Inspector                    Counsel
 General for                General for           Inspections              General for
Investigations                 Audit                  and                    Mission
                                                  Evaluations                Support




                                                  Authorities

 TIGTA has all of the authorities granted                       potential criminal offenses under the
 under the Inspector General Act of 1978, as                    Internal Revenue laws. In addition, the IRS
 amended.4 TIGTA has access to tax                              Restructuring and Reform Act of 19985
 information in the performance of its tax                      amended the Inspector General Act of 1978
 administration responsibilities. TIGTA also                    to give TIGTA statutory authority to carry
 has the obligation to report potential                         firearms, execute and serve search and arrest
 criminal violations directly to the                            warrants, serve subpoenas and summonses,
 Department of Justice. TIGTA and the                           and make arrests as set forth in Section
 Commissioner of Internal Revenue have                          7608(b)(2) of the Internal Revenue Code
 established policies and procedures                            (I.R.C.).
 delineating responsibilities to investigate




                                                                5
                                                                 Public Law No. 105-206, 112 Stat. 685 (codified as
                                                                amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
                                                                16 U.S.C., and 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 I.R.C.,
 4
     5 U.S.C.A. app. 3 (West Supp. 2008).                       31 U.S.C., 38 U.S.C., and 49 U.S.C.).


 16                                   October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress



              Promote the Economy, Efficiency and 

               Effectiveness of Tax Administration 


T      IGTA’s Office of Audit strives to
       promote the economy, efficiency, and
effectiveness of tax administration. TIGTA
                                                           Audit Emphasis Areas
                                                      October 2009 through March 2010
provides recommendations to improve IRS
systems and operations while ensuring fair
and equitable treatment of taxpayers.                    •	 Modernization of the IRS
TIGTA’s comprehensive and independent                    •	 Security of the IRS
performance and financial audits of IRS                  •	 Tax Compliance Initiatives
programs and operations primarily address                •	 Providing Quality Taxpayer
mandated reviews and high-risk challenges                   Service Operations
facing the IRS.                                          •	 Erroneous and Improper Credits
                                                            and Payments
The IRS’s implementation of audit                        •	 Leveraging Data to Improve
recommendations results in:                                 Program Effectiveness and
                                                            Reduce Costs
   •	 Cost savings and increased or
      protected revenue;
   •	 Reduction of taxpayer burden;
   •	 More efficient use of resources;             Modernization of the Internal
   •	 Protection of taxpayer privacy and           Revenue Service
      security;
                                                   The Business Systems Modernization
   •	 Protection of resources/reliability of
                                                   Program (Modernization Program) is a
      information; and
                                                   complex effort to modernize IRS technology
   •	 Protection of taxpayer rights and            and related business processes. It involves
      entitlements.                                integrating thousands of hardware and
                                                   software components while replacing
Each year, TIGTA’s OA identifies and               outdated technology and maintaining the
addresses the major management challenges          current tax system.
facing the IRS. OA places audit emphasis
on statutory coverage required by RRA 98           TIGTA reviews have identified weaknesses
and other laws, as well as areas of concern        in program management processes
to Congress, the Secretary of the Treasury,        throughout the life of the Modernization
the Commissioner of the IRS, and other key         Program. While the IRS has improved its
stakeholders.                                      controls over these processes as the
                                                   Modernization Program has continued to
The following summaries highlight                  mature, several weaknesses continue to
significant audits completed in each of the        exist. Recent TIGTA audits have identified
areas of emphasis during this six-month            continued problems in requirements
reporting period:                                  development and management, program

                            October 1, 2009 - March 31, 2010                            17
                            TIGTA Semiannual Report to Congress


management, contract management, and                detailed program plan, being developed as
security controls.                                  TIGTA suggested with the Modernization
                                                    Vision and Strategy framework, may result
Although the Modernization Program has              in adjustments to target deliverables and
continued to help improve IRS operations,           time periods including elimination of
project development activities have not             redundant processing systems.
always implemented planned processes                Reference No. 2010-20-001
effectively or delivered all planned system
capabilities. The past year’s Modernization
Program performance did not continue the             “The IRS has made significant progress in
trend of improvement it demonstrated in the          developing the conceptual models for a
prior three years.                                   number of processes, but it must manage
                                                     the identified risks to enable the successful
The IRS has recognized that it faces                 implementation of the strategy.”
challenges in meeting the requirements of                                      - J. Russell George
the next phase of project development and                                       Inspector General
system integration. As a result, the IRS has
stated that a strategy correction is needed to
meet changing business needs, provide a             Standardizing Processes in IRS Computing
more agile information technology                   Centers
environment, and reduce risks with
associated costs to build and maintain              The IRS began the TRIPLEX initiative to
systems.                                            optimize data center operations using
                                                    industry best practices. Once fully
Reengineering Individual Tax Return                 implemented, the TRIPLEX initiative will
Processing                                          create a Uniform Operating Environment
                                                    across the three IRS computing centers,
In August 2008, the IRS Commissioner                operated by a Competency-Based
established the Modernized Taxpayer                 Organization through the standardization of
Account Program Integration Office to               processes and tools. This will make better
manage the transition of individual taxpayer        use of taxpayer dollars by reducing labor
account processing to a new modernized              costs and mitigating risks that can hamper
environment. Once completed, the new                the IRS’s ability to perform its primary
modernization environment should allow              mission of tax collection and compliance
the IRS to more effectively and efficiently         activities.
update taxpayer accounts, support account
settlement and maintenance, and process
refunds on a daily basis, contributing to            “While savings have been realized and
improved service to taxpayers.                       operations improved, additional
                                                     planning and implementation is
TIGTA provided an assessment of the                  necessary to ensure ongoing and future
Modernized Taxpayer Account Program                  process reengineering efforts are
Integration Office status and                        effectively planned and timely and
accomplishments through August 2009 and              successfully implemented.”
did not offer any recommendations.                                        - J. Russell George
IRS management acknowledged that the                                       Inspector General
report assessment was valid and that the


18                           October 1, 2009 - March 31, 2010
                        TIGTA Semiannual Report to Congress


TIGTA recommended that the IRS ensure             experienced in the deployment of TREES
that:                                             and because many planned capabilities were
                                                  not delivered due to budget cutbacks. If
   •	 Process reengineering teams                 additional actions are not taken by TE/GE
      adequately plan the scope, establish        Division management, the Federal
      time periods for workload                   Government will not receive the highest
      completion, track the progress,             possible return from the $18.7 million of
      timely complete, and have adequate          taxpayer funds spent on developing and
      resources;                                  implementing TREES.
   •	 Management timely completes the
      remaining process reengineering
      efforts or, if resources are not             “The TE/GE Division needs to take
      available to timely complete them,           additional actions to transform its
      suspends or cancels the process              examination process from paper-
      reengineering effort(s);                     intensive and inconsistent to efficient
   •	 The Configuration Management                 and electronic.”
      reengineering team establishes a                                  - J. Russell George
      schedule for entering the prioritized                               Inspector General
      configuration items in the
      Configuration Management Library;
   •	 Operational processes selected for          TIGTA recommended that the IRS develop
      reengineering are baselined to              an action plan that addresses issues
      establish the current state of the          identified by TIGTA and by the TE/GE
      process; and                                Division. This will allow the TE/GE
                                                  Division to gain increased acceptance and
   •	 Reengineered process performance
                                                  fuller use of TREES, which will lead to
      measures are implemented.
                                                  more attainment of its benefits.
IRS management agreed with the
                                                  IRS management agreed with the
recommendations and planned to take
                                                  recommendation and planned to develop an
appropriate corrective actions.
                                                  action plan to address the issues identified,
Reference No. 2010-20-007
                                                  including providing additional information
                                                  and training to TREES users.
Realizing Benefits of TE/GE Reporting and
Electronic Examination System                     Reference No. 2010-10-020

The Tax Exempt and Government Entities            Security of the Internal Revenue
Reporting and Electronic Examination              Service
System (TREES) was developed to provide
a case management system for Tax Exempt           Millions of taxpayers entrust the IRS with
and Government Entities (TE/GE) Division          sensitive financial, personal, and other data
employees and to improve the examination          that are processed by and stored on IRS
process. While some improvements have             computer systems. Reports of identity theft
been made to TREES since its release, the         from both the private and public sectors
TE/GE Division has not realized the               have heightened awareness of the need to
expected improvements in the examination          protect these data. The risk that taxpayers’
process. This is due to the difficulties          identities could be stolen by exploiting

                           October 1, 2009 - March 31, 2010                              19
                                 TIGTA Semiannual Report to Congress


security weaknesses in the IRS’s computer                   •	 Revise existing policies, as
systems continues to increase, as does the                     necessary, to require State agencies
risk that IRS computer operations could be                     and their contractors to provide
disrupted. Internal factors (such as the                       sufficient documentation on a more
increased connectivity of computer systems                     frequent basis to support that
and increased use of portable laptop                           corrective actions were taken to
computers) and external factors (such as the                   address reported computer security
volatile threat environment resulting from                     weaknesses;
increased terrorist and hacker activity)                    •	 Complete planned personnel actions
require strong security controls.                              so that adequate staffing is available
                                                               to proactively monitor and validate
The Federal Information Security                               the corrective security actions taken
Management Act (FISMA)6 requires each                          by State agencies and their
Federal Government agency to report                            contractors; and
annually to the Office of Management and                    •	 Continue to use a recently
Budget and to Congress on the effectiveness                    implemented monitoring tool and
of its security programs and to perform an                     complete the training of new staff to
annual independent evaluation of its                           increase the efficiency of the
information security program and practices.                    reporting process.
The IRS has made steady progress in
complying with FISMA requirements since                  IRS management agreed with the
the law’s enactment in 2002, and it                      recommendations and planned to take
continues to place a high priority on efforts            appropriate corrective actions.
to improve its security program. However,                Reference No. 2010-20-003
TIGTA’s audits continue to show that the
IRS needs to do more to adequately secure                Automated Collection System
its systems and data.
                                                         The Automated Collection System (ACS) is
Protection of Federal Tax Information at                 a telephone contact system used by IRS
State Government Agencies                                employees to perform critical IRS processes
                                                         such as collecting tax revenues and helping
The IRS’s Safeguards Program is tasked                   taxpayers resolve their tax issues. The IRS
with ensuring that State Government                      needs to implement additional security
agencies receiving Federal tax information               controls to protect the ACS and sensitive
maintain adequate safeguards to protect IRS              taxpayer data. The lack of complete security
data from unauthorized disclosure.                       controls increases the risks that taxpayer
Weaknesses in the program may increase the               data could be stolen or computer operations
risk that taxpayer data are not being                    could be disrupted.
adequately secured and might be
inappropriately accessed or used, possibly               TIGTA recommended that the IRS:
for fraudulent purposes such as identity
theft.                                                      •	 Make enhancement or replacement
                                                               of its online user access control
TIGTA recommended that the IRS:                                system a top priority;
                                                            •	 Instruct the Modernization and
6
  Federal Information Security Management Act of 2002,         Information Technology Services
44 U.S.C. §§ 3541-3549.


20                                October 1, 2009 - March 31, 2010
                          TIGTA Semiannual Report to Congress


        organization to create call site            manager should be appointed and that the
        procedures to clarify the capabilities      weaknesses identified in the report could
        of ACS users’ profiles;                     persist without appointment of this
   •	   Set completion dates and prioritize         responsible official.
        the work needed to complete the             Reference No. 2010-20-028
        high-level and ACS configuration
        management plans;                           Telephone Authentication Practices
   •	   Appoint an ACS configuration                In February 2009, the Federal Trade
        manager to oversee ACS                      Commission reported that, for the ninth year
        configuration management activities         in a row, identity theft was the number one
        and protect critical ACS                    consumer complaint nationwide. Identity
        documentation by storing the                theft occurs when someone uses Personally
        documents in the required electronic        Identifiable Information, such as an
        document management system;                 individual’s name or Social Security
   •	   Identify key software configuration         Number, to commit fraud and other crimes.
        items and maintain the items in a           Taxpayers need to be assured that the IRS is
        secure system to allow efficient            taking every precaution to protect their
        monitoring;                                 private information from inadvertent
   •	   Ensure that the IRS’s required              disclosure.
        change-management procedures are
        followed for all changes to the ACS         TIGTA recommended that the IRS revise
        servers; and                                guidelines to require assistors to ask two
   •	   Establish criteria and completion           additional high-risk probes when callers
        dates for addressing vulnerabilities        incorrectly answer the address or date of
        found on servers.                           birth probes. Training should emphasize
                                                    that assistors are not to prematurely
TIGTA also recommended that the IRS                 authenticate callers and that it is important
instruct ACS managers to review their               to control calls and place callers on hold
employees’ access privileges annually and           while conducting research. Guidelines
remove users’ accounts from the ACS when            should require assistors to ask callers to
the users transfer to non-ACS functions. In         repeat Personally Identifiable Information if
addition, TIGTA recommended that the IRS            clarification is needed. Finally, TIGTA
reinstate the ACS Security Maintenance              recommended that the IRS incorporate
Report that identifies changes to employees’        available technology to authenticate callers
access levels.                                      in the queue as part of the development of
                                                    the Authentication Retention system.
IRS management agreed with most of the
recommendations and stated that it has              IRS management agreed with two and
already revised some procedures. The IRS            partially agreed with one of the four
disagreed with the recommendation to                recommendations, and it plans to take
appoint an ACS configuration manager and            appropriate corrective actions.
stated that it is currently aligning with
configuration management procedures to              The IRS did not agree to revise guidelines to
implement corrective actions. TIGTA                 require assistors to ask two additional high-
continues to believe an ACS configuration           risk probes when callers incorrectly answer


                             October 1, 2009 - March 31, 2010                               21
                                  TIGTA Semiannual Report to Congress


the address or date of birth probes.                      economically distressed taxpayers.
However, training materials will continue to              However, some of the actions could
emphasize that when callers incorrectly                   jeopardize collections and, at times, some
answer the address or date of birth probes,               taxpayers may have had difficulty
inadequate caller identity authentication                 identifying the alternatives if they were
could result in an unauthorized disclosure.               unfamiliar with IRS resources.

TIGTA maintains that requiring assistors to               TIGTA recommended that the IRS:
ask two additional high-risk probes when
callers incorrectly answer the address or date               •	 Revise computer programming to
of birth probes is warranted to reduce the                      remove the unintended consequences
risk of unauthorized disclosures.                               from the processing routine; and
Reference No. 2010-40-045                                    •	 Ensure that the link to the various
                                                                scenarios remains on the IRS home
Tax Compliance Initiatives                                      page and/or the Tax Information for
                                                                Individuals page until the economy
Tax compliance initiatives include the
                                                                recovers.
administration of tax regulations, collection
of the correct amount of tax from businesses
                                                          IRS management agreed with the
and individuals, and oversight of tax-exempt
                                                          recommendations and has taken or plans to
and government entities. Increasing
                                                          take appropriate corrective actions.
voluntary compliance and reducing the Tax
                                                          Reference No. 2010-30-032
Gap7 are currently the focus of many IRS
initiatives. Nevertheless, the IRS is facing
                                                          Individual Retirement Accounts
significant challenges in obtaining more
complete and timely data, and in developing               Individual Retirement Accounts (IRA) are a
the methods necessary to interpret the data.              key tax-preferred way for individuals to save
The IRS must continue to seek accurate                    for retirement and are an important way for
measures for the various components of the                individuals to roll over savings from pension
Tax Gap and the effectiveness of the actions              plans. A prior TIGTA review concluded
taken to reduce it. In addition, while the                that IRS processing procedures for IRAs do
IRS regularly encounters lax governance                   not ensure that individuals are complying
practices on the part of tax-exempt entities,             with IRA rules. TIGTA’s review of tax year
it must remain vigilant in ensuring that the              2006 and tax year 2007 IRA information
privilege of tax-exemption is not abused.                 showed that individual noncompliance with
                                                          IRA excess contribution and minimum
Collection Alternatives for Economically                  distribution requirements continued to grow
Distressed Taxpayers                                      since the previous review. TIGTA
                                                          identified potential revenue losses associated
Collection provisions offer many viable
                                                          with:
alternatives to help resolve taxpayers’
balance-due accounts. When the economy
weakened, the IRS proactively implemented                    •	 295,141 individuals improperly
or re-emphasized provisions to help                             making excess contributions
                                                                totaling $812 million for tax year
7
  The IRS defines the Tax Gap as the difference between
                                                                2006 and $757 million for tax
the estimated amount taxpayers owe and the amount they          year 2007. Estimated tax revenue
voluntarily and timely pay for the tax year.


22                                 October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress


      losses are $94.2 million in excise           staffing, and the significant number of
      tax and $17.6 million in income              applications not being closed within
      tax for these two tax years.                 timeliness goals, further improvements will
   •	 255,498 individuals not taking               be needed. TIGTA identified five areas
      required minimum distributions               where additional processing improvements
      totaling $348 million for tax                can be made to improve the IRS’s ability to
      years 2006 and 2007. The                     timely process VCP applications.
      estimated tax revenue loss is
      $174 million in excise tax for               IRS management agreed with the
      these two tax years.                         recommendations and has taken or plans to
                                                   take appropriate corrective actions.
TIGTA recommended that the IRS develop             Reference No. 2010-10-012
a Service-wide strategy to address
retirement provision noncompliance.                Lien Determinations
                                                   The IRS protects its claims against
IRS management agreed that a Service-              taxpayers who owe delinquent taxes by
wide strategy is warranted. Executives             filing Federal tax liens (liens). This
agreed to share responsibility for the             establishes the IRS’s priority among
development of this long-term strategy.            secured creditors for the taxpayers’ equity.
This strategy will not only address                However, lien determinations were not
compliance, but will also include plans for        appropriately made or were made late for
outreach and guidance for individual               more than $1.4 billion in delinquent taxes.
taxpayers and employee plan organizations.         Failure to protect the Government’s interest
Reference No. 2010-40-043                          on taxes that are owed creates an unfair
                                                   burden on taxpayers who properly pay their
Voluntary Correction Program                       taxes in full and on time.
The Voluntary Correction Program (VCP)
permits retirement plan sponsors to pay a          TIGTA made several recommendations to
fee and receive the IRS’s approval for             improve the controls and guidance for
correction of retirement plans at any time         making lien determinations. IRS
before an audit.                                   management agreed with all of the
                                                   recommendations.
To meet increased customer demand, the             Reference No. 2010-30-023
IRS made several changes that reduced the
overall VCP processing time nearly 50              Sole Proprietor Correspondence Audits
percent. However, about 22 percent of the          Estimates by the IRS show that the
applications were still not being closed           underreporting of income by sole
within timeliness goals in Fiscal Year (FY)        proprietors contributed to $68 billion of the
2008. Correcting errors in a timely and            $345 billion Tax Gap in 2001. TIGTA
efficient manner protects the favorable            evaluated closed correspondence audits of
treatment of employees’ retirement benefits        individual returns reporting sole-proprietor
and reduces the uncertainty of any potential       operations and found that significant tax
tax liabilities for employees as well as for       issues were not addressed during these
retirement plan sponsors. To address               audits. Sole proprietors who underreport
increased customer demand, reduced                 their income can create unfair burden on

                            October 1, 2009 - March 31, 2010                               23
                           TIGTA Semiannual Report to Congress


honest taxpayers and diminish the public’s         TIGTA agreed that the IRS’s alternate
respect for the tax system.                        corrective actions may help reduce the
                                                   number of significant tax issues that are not
TIGTA recommended that the IRS require             addressed during correspondence audits of
examiners to conduct and document in the           sole proprietors. However, the absence of a
audit case files checks to identify unfiled        specific commitment from the IRS requiring
employment tax and information returns             that examiners conduct a preliminary cash
and the results of automated preliminary           transaction analysis during sole-proprietor
cash transactions analyses, including              audits is surprising given the high number of
consideration given to transferring the audit      correspondence audits closed in recent
to the field if issues are identified. In          years, including those involving a sole
addition, TIGTA recommended that                   proprietor. A preliminary cash transaction
controls be expanded to ensure that                analysis can identify considerable
examiners are properly performing checks           differences between expenditures and
for unfiled employment tax and information         income. This difference raises very serious
returns and are conducting preliminary cash        questions about whether expenses may be
transaction analyses so that corrective            overstated on the return and/or whether there
actions can be identified and taken, if            may be additional sources of income that
needed.                                            should have been reported. Moreover, the
                                                   IRS readily admitted in its response that
                                                   sole-proprietor underreporting is a serious
 “Sole proprietors who underreport their           compliance issue and that this type of
 income can create an unfair burden on             analysis is necessary for an effective audit of
 honest taxpayers and diminish the                 the issue.
 public’s respect for the tax system.”             Reference No. 2010-30-024
                       - J. Russell George
                        Inspector General          Employment Tax Compliance
                                                   The misclassification of employees as
                                                   independent contractors is a nationwide
IRS management partially agreed with the
                                                   issue affecting millions of employees that
recommendations by responding with
                                                   continues to grow and contribute to the Tax
alternate corrective actions. The IRS plans
                                                   Gap. According to program documents,
to develop inventory selection filters to
                                                   closing the Tax Gap remains one of the
identify and exclude sole proprietors who
                                                   biggest challenges for the IRS’s Small
have unfiled employment tax or information
                                                   Business/Self-Employed Division. The IRS
returns and/or have indicators of unreported
                                                   has several opportunities to enhance
income from correspondence examination
                                                   compliance in its Employment Tax Program
inventory. The IRS will make those returns
                                                   by taking measures to ensure that
available for field examination. It also plans
                                                   employment tax forms are not misused to
to provide additional guidance to
                                                   avoid paying proper tax and by regularly
correspondence examiners on documenting
                                                   sharing results of examinations from worker
case files and transferring them to field
                                                   classification leads to ensure it is
examination and ensuring that appropriate
                                                   maximizing its resources efficiently when
actions are taken during quality reviews to
                                                   addressing the underreporting Tax Gap.
provide feedback that can be used to update
                                                   Implementing these enhancements will help
inventory selection filters.


24                          October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress


ensure that the burden of uncollected taxes         were protected as well as to provide
is not shifted to compliant taxpayers.              security over Federal tax information.

TIGTA made three recommendations for the            Although TIGTA made no
IRS to ensure that employment tax forms are         recommendations in the report, it provided
not misused. In addition, TIGTA                     IRS management an opportunity to review
recommended that the operating divisions            the draft report; however, IRS did not
take steps to ensure that feedback is               provide any report comments.
provided to the SS-8 program regarding its          Reference No. 2010-30-013
referrals.
                                                    Providing Quality Taxpayer Service
IRS management agreed with two                      Operations
recommendations, disagreed with one, and
partially agreed with the remaining                 Since the late 1990’s, the IRS has increased
recommendation. The IRS cited costs as the          its delivery of quality customer service to
basis for its disagreement with one of the          taxpayers. In July 2005, Congress requested
recommendations, and offered to conduct a           that the IRS develop a five-year plan,
pilot study as an alternate corrective action.      including an outline of which services the
                                                    IRS should provide and how it will improve
Although TIGTA is encouraged by this, it is         service for taxpayers. In response, the IRS
also concerned about the overall                    developed the Taxpayer Assistance
effectiveness of the alternate corrective           Blueprint, which focuses on the appropriate
action and the Calendar Year 2012                   types and amounts of services that support
completion date, noting that the IRS                the needs of individual filers. The IRS has
previously agreed to perform a similar pilot        begun implementing the initiatives of the
study in response to a prior report and only        Blueprint; however, many of the initiatives
recently began to take action to address            are dependent on future funding.
these concerns. Furthermore, the IRS stated
it plans to consider the results of the pilot       ITINs Are Being Issued Without Supporting
study, workload, staffing, and budget before        Documentation
committing to any expansion.                        The purpose of the Individual Taxpayer
Reference No. 2010-30-025                           Identification Number (ITIN) is to provide
                                                    alien individuals, whether or not they reside
Private Debt Collection Program                     in the United States (U.S.), an identifying
While the Internal Revenue Code authorizes          number for use in connection with U.S. tax
the IRS to enter into contracts with private        return filing requirements. The volume of
collection agencies (contractors) to assist in      ITINs is growing. When applications for
the collection of delinquent Federal taxes,         ITINs are not effectively processed and
the IRS has discontinued the Private Debt           ITINs are inappropriately issued, the risk
Collection program. Actions taken by the            increases that ITINs will be used to file
IRS and contractors were appropriate to             fraudulent tax returns. Inadequate
conclude work on the program. The IRS               processing of ITIN application packages
developed and implemented procedures that           increases the risk to both the taxpaying
were designed to ensure that taxpayer rights        public and the Federal Government for



                             October 1, 2009 - March 31, 2010                                25
                           TIGTA Semiannual Report to Congress


potential losses associated with ITIN              quality of work performed by Appeals
applicants.                                        personnel.

TIGTA recommended that the IRS revise              TIGTA recommended that the IRS:
guidelines related to processing applications
submitted by Certified Acceptance Agents                  •	 Develop procedural guidance to
and applications submitted directly to the                   properly notify appropriate parties in
IRS to ensure that the instructions for                      Innocent Spouse proceedings when
completing the Form W-7 and internal                         the nonrequesting spouse is
guidelines are consistent. In addition,                      deceased;
TIGTA recommended that the IRS ensure                     •	 Issue reminders to employees to
that the data on the Real-Time System are                    emphasize how statute of limitation
accurate, and develop procedures and                         dates should be determined for
internal controls to monitor the Real-Time                   refund claims and the requirement to
System to ensure the accuracy of the                         properly document the reason for
information entered.                                         abating penalties in the Appeals Case
                                                             Memorandum; and
IRS management agreed with most of the                    •	 Develop an internal control that
recommendations and has taken or plans to                    would identify the absence of the
take appropriate corrective actions.                         Uniform Acknowledgement Letter
Reference No. 2010-40-005                                    on Collection Due Process and Offer
                                                             in Compromise cases and ensure an
Campus Centralization Efforts                                acknowledgement letter is issued
The Appeals campus centralization was                        within 30 days of receipt as required.
designed to resolve high volumes of work,
improve customer service and increase              IRS management agreed with the
efficiency by responding to taxpayer issues        recommendations and has planned to take
earlier in the Appeals process. While              appropriate corrective actions.
Appeals has made considerable progress in          Reference No. 2010-10-021
achieving its centralization goals and has
taken corrective actions to address the            Erroneous and Improper Payments
recommendations made in TIGTA’s prior              As defined by the Improper Payments
report, additional improvement can be              Information Act of 2002,8 an improper
achieved in certain activities performed at        payment is any payment that should not
the campuses to further enhance customer           have been made or that was made in an
service and positively impact tax                  incorrect amount (including overpayments
administration. TIGTA identified a few             and underpayments) under statutory,
instances where actions could be taken to          contractual, administrative, or other legally
ensure the protection of taxpayer rights and       applicable requirements. It includes any
Government revenue, and to further reduce          payment to an ineligible recipient, any
taxpayer burden.                                   payment for an ineligible service, any
                                                   duplicate payment, payments for services
Continued focus in these areas will support        not received, and any payment that does not
Appeals’ goal of reducing the processing
time of taxpayers’ appeals, enhance
                                                   8
customer satisfaction, and improve the                 Pub. L. No. 107-300, 116 Stat. 2350 (2002).


26                          October 1, 2009 - March 31, 2010
                        TIGTA Semiannual Report to Congress


account for credit for applicable discounts.       each of the transitioned activities. The
For the IRS, improper and erroneous                average time to complete one unit of work
payments generally involve improperly paid         should then be applied to the anticipated
refunds, tax return filing fraud, or               workload volumes to identify staffing
overpayments to vendors or contractors.            resources needed to timely complete these
On November 29, 2009, the President signed         activities in Processing Year 2011.
Executive Order 13520, Reducing Improper
Payments. The purpose of the order is to           IRS management agreed with TIGTA’s
reduce improper payments by intensifying           recommendation and plans to analyze the
efforts to eliminate payment error, waste,         volume of work and staff hours needed to
fraud, and abuse in major Federal programs.        perform the 2010 Filing Season work in
The order requires that each agency provide        order to determine the resources required to
its Inspector General with a report on the         timely complete the projected work in the
agency’s methodology for identifying and           2011 Filing Season.
measuring improper payments and agency             Reference No. 2010-40-017
plans to reduce them. The Inspector General
will assess the level of risk associated with      Taxpayer Protection and Rights
the applicable programs; determine the
amount of oversight warranted; and provide         The IRS must balance its tax compliance
recommendations on the methodology and             activities against the rights of taxpayers to
improper payment reduction plan. Agencies          receive fair and equitable treatment. The
must also report quarterly on high-dollar          IRS continues to dedicate significant
improper payments and efforts to prevent           resources and attention to implementing the
their occurrence in the future.                    taxpayer rights provisions of RRA 989. In
                                                   general, the IRS has improved its
Detecting and Stopping Fraudulent Refunds          compliance with these statutory taxpayer
                                                   rights provisions. However, TIGTA audits
The Questionable Refund Program (QRP) is           continue to show that there are
a nationwide, multi-functional program             circumstances in which the IRS can better
designed to detect and stop fraudulent             protect taxpayers’ rights.
claims for refunds on income tax returns.
Pre-refund fraud detection activities have         Registered User Portal
been transferred from the IRS’s Criminal
Investigation Division to its Wage and             The use of the Internet is an integral part of
Investment Division Accounts Management            the IRS’s mission to deliver top quality
function. Insufficient staffing could reduce       service to all taxpayers. The IRS developed
the number of fraudulent refunds identified        the Registered User Portal (RUP) to provide
and stopped, and leave the IRS unable to           Web access to the IRS’s e-service
provide timely assistance to taxpayers who         applications and provide outside tax
experience delays in receiving their refund        professionals with the ability to submit and
or who are victims of identity theft.              retrieve tax-related information and
                                                   electronically file (e-file) tax returns.
TIGTA recommended that the IRS perform
a comprehensive analysis during the 2010           9
                                                     Pub. L. No. 105-206, 112 Stat. 685 (codified as amended
Filing Season to determine the average time        in scattered sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C.,
needed to complete one unit of work for            19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38
                                                   U.S.C., and 49 U.S.C.).

                            October 1, 2009 - March 31, 2010                                           27
                           TIGTA Semiannual Report to Congress


Because these external users can access            activities of RUP users and begin reviewing
taxpayer data, modify electronic tax returns       the audit logs.
prior to transmitting them to the IRS, and
download taxpayer data to their computers,         IRS management agreed with most of the
access controls at the RUP are critical to         recommendations and stated that the RUP
minimize the risk of unauthorized access to        audit logs are now being reviewed to detect
taxpayers’ personal tax data.                      unauthorized activities. In addition, the IRS
                                                   plans to establish an Executive Review
TIGTA recommended that the IRS:                    Board to formally consider deviations from
   •	 Require suitability checks on                the Criminal Investigation Division’s
      delegated users who e-file tax returns       recommendations. Further, it revised its
      or access sensitive e-service                required minimum password length to eight
      applications;                                characters for all systems except the
   •	 Revise the appeal procedures for             Windows operating system. TIGTA
      e-file applicants who fail their             concurred with these corrective actions.
      suitability check to specify that the        Reference No. 2010-20-027
      IRS’s Criminal Investigation
      Division’s Fraud Detection Center            E-file Program
      has the final approval authority;            The primary means by which the IRS
   •	 Disable and delete inactive RUP              regulates e-file providers are the application
      accounts in accordance with IRS              screening process and the monitoring
      procedures or follow the IRS risk-           program. The application screening process
      based decision procedures to obtain          does not ensure the integrity of the
      the required thorough assessment             individuals applying for participation in the
      and approval to not implement these          e-file program; nor does the monitoring
      security controls;                           program ensure e-file providers comply with
   •	 Request that the Chief Technology            e-file program requirements. Inadequate
      Officer strengthen RUP passwords to          screening and monitoring increase the risk to
      contain a mix of lower case and              both the taxpaying public and the Federal
      upper case letters, set the password         Government for potential losses associated
      length to 12 characters, and prevent         with unscrupulous e-file providers.
      the use of Social Security numbers as
      usernames; and                               TIGTA recommended that the IRS ensure
   •	 Request that the Chief Technology            citizenship and not-for-profit status are
      Officer implement a control to allow         verified for all e-file program applicants and
      users to answer a series of challenge        that both applicants and current e-file
      questions to unlock their RUP                providers who are identified with a blank or
      accounts.                                    unknown citizenship status in the Data
                                                   Master-1 file are verified as being a U.S.
TIGTA also recommended that the IRS                citizen or a legal alien. TIGTA also
enhance the e-file application on the Third        recommended that the IRS implement
Party Data Store to post the complete results      controls to ensure that: the monitoring visit
of the tax compliance check that is                procedures are being followed; the
performed for an e-file applicant’s spouse,        information reported to Small Business/Self-
and develop a process to analyze the               Employed Division Headquarters is
                                                   accurate; and the results of the monitoring


28                          October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress


visits are used to improve and measure the         Federal Funding for Unemployment Benefits
effectiveness of the e-file program.               TIGTA’s review identified that while
The IRS agreed with most of the                    additional procedures and controls have
recommendations and plans to take or has           been implemented, there are still
taken appropriate corrective actions.              insufficient controls to ensure that expenses
The IRS did not agree to verify the                associated with the administration of the
citizenship status of all e-file providers         Unemployment Trust Fund (the trust fund)
because it would create e-file program             are accurately calculated. For example, the
eligibility conflicts with impending               IRS overestimated its trust fund-related
legislation mandating e-file for most return       expenses by $63 million during Fiscal
preparers. However, even if e-file is              Years 2005 through 2009. As a result,
mandated, any U.S. based e-file provider           these funds were not available during this
will have a Social Security Number and can         period to fund the Federal Government’s
be verified for citizenship status. Any            share of unemployment benefit payments to
foreign-based preparers will have an ITIN          eligible taxpayers.
that is distinguishable from a Social Security
Number.
Reference No. 2010-40-042                          TIGTA recommended that the IRS:

Leveraging Data to Improve Program                     •	 Update the procedures used by the
Effectiveness and Reduce Costs                            business units to calculate their trust
                                                          fund administrative expenses;
While the IRS has made some progress in                •	 Instruct that the audit file and
using its data to improve program                         supporting documentation be
effectiveness and reduce costs, this area                 maintained in a central location for a
continues to be a major challenge. The IRS                minimum time period;
lacks a comprehensive, integrated system               •	 Implement a policy to routinely
that provides accurate, relevant, and timely              review documentation supporting the
financial and operating data describing                   summary cost reports submitted by
performance measures, productivity, and                   the IRS business units; and
associated costs of IRS programs. In                   •	 Determine, on an annual basis, if
addition, the IRS cannot produce timely,                  new versions of the Employer’s
accurate, or useful information needed for                Annual Federal Unemployment Tax
day-to-day decisions, which hinders its                   Return (Form 940) are developed
ability to address financial management and               and incorporated into its procedures.
operational issues to fulfill its
responsibilities. TIGTA has continued to           Finally, TIGTA recommended that the IRS
report that various IRS management                 also ensure that the development of a cost
information systems are insufficient to            accounting capability be considered during
enable IRS management to measure costs,            the development of future financial
determine if performance goals have been           accounting system requirements to support
achieved, or monitor progress in achieving         the ability to readily track, record, and report
program goals.                                     trust fund expenses.




                            October 1, 2009 - March 31, 2010                                29
                         TIGTA Semiannual Report to Congress


IRS management agreed with the
recommendations and plans to take
appropriate corrective actions.
Reference No. 2010-10-039

              ************




30                        October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress




          Protect the Integrity of Tax Administration 





T     he Nation was shocked on Thursday,
     February 18, 2010, when a disgruntled
taxpayer flew his single engine plane into an
                                                   TIGTA Special Agents in the OI Austin post
                                                   of duty, whose mission is to protect IRS
                                                   employees, immediately responded to the
office building in Austin, Texas occupied by       scene and worked alongside other Federal,
approximately 200 IRS employees. An IRS            State and local law enforcement agencies
employee was killed in the incident and 13         and first responders. Soon, IRS employees
others sustained injuries. Within an hour or       began reporting taxpayer statements that
so after the attack, the taxpayer's pre-           expressed support of the Austin attack.
positioned suicide note was discovered on          Bloggers began opining that more attacks
the Internet and it became clear that this was     should be forthcoming and expressed their
an IRS-related attack and that the intended        disappointment that only one IRS employee
target was, in fact, the IRS.                      had lost his life in the attack. OI


                            October 1, 2009 - March 31, 2010                           31
                          TIGTA Semiannual Report to Congress


immediately began forming various teams to         With this poignant reminder of the dangers
focus investigative resources on the issue.        that the IRS and its employees face on a
Identifying, interdicting and mitigating           daily basis, we have chosen to highlight
potential threats directed at the IRS and its      TIGTA’s efforts in the area of IRS
employees is a huge and sometimes somber           Employee and Infrastructure Security in this
responsibility, but it is one at which OI’s        Semiannual Report to Congress.
investigators excel.




32                          October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress


                        TIGTA’s Investigative Performance Model




TIGTA’s three investigative responsibilities include employee integrity, employee and
infrastructure security, and external attempts to corrupt or threaten tax administration. Each of
these focus areas consists of three subcomponents. This performance model serves as the
bedrock upon which OI’s decision making process rests. The model is crucial in determining
how to allocate scarce investigative resources, and it provides a sound conceptual model to
ensure that those resources are effectively utilized. The performance model guides field agents
and their supervisors in setting investigative priorities, and it informs budgetary planning and
decision making throughout the organization.




                            October 1, 2009 - March 31, 2010                                33
                                  TIGTA Semiannual Report to Congress



Employee and Infrastructure Security                       IRS confirmed that the person named in
                                                           Wight’s posted MySpace threat is a real
Threats to and assaults of IRS employees                   person employed by the IRS.11
adversely affect the Federal Government’s
ability to collect tax revenue. TIGTA                      This case was worked jointly with the
protects revenue collection by investigating               Federal Bureau of Investigation.
threats to IRS employees, IRS physical
infrastructure, and IRS information systems.               Michael Belair Charged with Making Threats
TIGTA also conducts threat assessments to                  to the IRS
determine if individuals or groups may pose                On September 14, 2009, Michael Belair was
a threat to the IRS, its employees or its                  charged in Florida with using interstate
infrastructure. From October 2009 through                  communications to threaten to injure another
March 2010, OI closed 547 assault/threat                   person.12
investigations and threat assessments.
                                                           On March 19, 2009, the IRS received a letter
The following cases are examples of                        from Belair that contained several
employee and infrastructure security                       threatening statements. Belair’s letter was
investigations that TIGTA conducted during                 written in response to official IRS
this period:                                               correspondence advising him of an
                                                           outstanding tax liability.
Man Charged With Making a Threat in
Interstate Commerce and Interfering With                   TIGTA special agents interviewed Belair on
the Administration of Internal Revenue Laws                April 10, 2009. During the interview, Belair
On December 16, 2009, in Utah, Michael                     stated “don’t ask me to pay this Nazi
Wight was charged with making a threat in                  country, I won’t do it.” Belair also stated
interstate commerce and interfering with the               that he had been under tremendous amounts
administration of internal revenue laws.10                 of stress due to an illness, had been
Wight controls a MySpace page that clearly                 frustrated because of his situation with the
bears his photograph, confirmed using                      IRS, and did not care if he were arrested
public record databases, holding a firearm.                because he was going to die soon anyway.
The MySpace page also contained another                    TIGTA special agents advised that he may
photograph showing a number of firearms                    not threaten the IRS or its employees and
lying on a bed. Underneath the photograph                  that making threats is a violation of Federal
of the firearms lying on the bed was written               law.
“… I also dedicate this to the INTERNAL
REVENUE SERVICE ACS Collection                             On June 26, 2009, the IRS reported receipt
Manager [name deleted…]…who steals My                      of correspondence from Belair dated June
money every Month for the last 2 ½ years I                 12, 2009. This letter responded to official
got Your Vengance [sic] and Justice Coming                 IRS correspondence advising him that the
to You all with My Guns…These Guns and                     IRS was going to deduct money from his
others like them will Insure Your Death and                Social Security benefits in order to pay his
the return of Freedom in America!…” The
                                                           11
                                                              Source: District of Utah Felony Complaint filed 

                                                           December 4, 2009.

10                                                         12
  Source: District of Utah Indictment filed December 16,      Source: Southern District of Florida Criminal

2009.                                                      Complaint filed September 14, 2009. 



34                                 October 1, 2009 - March 31, 2010
                               TIGTA Semiannual Report to Congress


tax liability. In the letter Belair stated “…if             Inspector General Reform Act of 200814 was
one cent is deducted from my SS check I am                  signed into law, which eliminated the
quite certain that I will be outraged and                   statutory prohibition against TIGTA
might even be pushed to take this atrocity to               providing physical security to protect IRS
the IRS offices and kill myself in the                      employees against external threats. TIGTA
lobby…”.                                                    also operates a Criminal Intelligence
                                                            Program that develops and facilitates
On June 30, 2009, investigators monitored a                 pertinent information regarding potential
telephone call between an IRS employee and                  threats to IRS employees and operations.
Belair. During the monitored call, Belair                   This program includes participation in the
stated: “If one cent is touched from my                     Federal Bureau of Investigation-sponsored
social security (sic) check, there will be                  Joint Terrorism Task Forces nationwide. In
violence.” Belair also stated, “I have                      addition, TIGTA’s System Intrusion and
attempted suicide three times, I’m a loose                  Network Attack Response Team defends
cannon and people better step off.”                         against hackers who attempt to compromise
                                                            the data integrity of taxpayer information
On June 30, 2009, TIGTA special agents                      stored in IRS computer systems.
and Hollywood, Florida police officers
contacted Belair. The police officers took                  TIGTA anticipates that the need for armed
Belair into custody for safety reasons and                  escorts may increase over time as the IRS
transported him to a hospital for a                         places additional emphasis on collection and
psychological evaluation.13                                 enforcement activity. TIGTA special agents
                                                            are prepared to protect IRS employees and
Armed Escort Activities                                     they take this important responsibility very
                                                            seriously.
Congressional concern regarding the
magnitude of uncollected revenue has                        Since the elimination of the statutory
prompted the IRS to intensify enforcement                   prohibition against TIGTA providing
activities. Heightened enforcement is likely                physical security to protect IRS employees
to cause a rise in external threats to IRS                  against external threats, TIGTA has
employees and infrastructure. Both                          conducted 28 armed escort operations; 13
TIGTA’s proactive and reactive                              were conducted during the reporting period.
investigations are critical to mitigating
future risks. TIGTA maintains IRS
employee and infrastructure security by
                                                            Employee Integrity Investigations
conducting investigations into incidents that               IRS employee misconduct adversely affects
threaten IRS employees, facilities, and                     IRS operations and can undermine the
infrastructure. TIGTA’s highest priority                    public’s confidence in the integrity of the
complaints involve threats and assaults                     IRS itself. TIGTA is charged with
against IRS employees. TIGTA works                          investigating IRS employee misconduct,
aggressively and takes swift action to protect              including allegations such as extortion,
IRS employees, including providing them                     bribery, theft, abusive treatment of
with armed escorts. In October 2008, the                    taxpayers, false statements, financial fraud,
                                                            and unauthorized access (UNAX) to
13
  Source: Southern District of Florida Affidavit in
Support of a Criminal Complaint filed September 14, 2009.
                                                            14
                                                                 Public Law No. 110-409, 122 Stat. 4302 (2008).

                                   October 1, 2009 - March 31, 2010                                               35
                           TIGTA Semiannual Report to Congress


confidential taxpayer information, whether         data analysts. The other investigations are
by IRS employees or contractors.                   initiated as a result of complaints or
                                                   allegations made by taxpayers or IRS
UNAX is a persistent vulnerability for the         officials. Of the UNAX investigations
IRS and the Federal tax system. The IRS is         proactively generated by TIGTA, over 84
entrusted with properly maintaining and            percent result in substantiated UNAX
safeguarding sensitive taxpayer information,       violations. The UNAX allegations that are
including Personally Identifiable                  investigated as a result of taxpayer or IRS
Information -- the loss or misuse of which         management complaints are fully
can result in identity theft and other             investigated leveraging the forensic data
fraudulent activity. Because the Federal tax       analysts’ expertise. Of the UNAX
system is based on voluntary compliance,           violations investigated during this reporting
public confidence that the personal and            period, more than 9 percent have an
financial information given to the IRS for         affiliated criminal violation such as identity
tax administration purposes will be kept           theft, bribery, and theft of Government
confidential is essential to that system. Even     funds through improper adjustments of IRS
when unauthorized access does not involve          accounts.
unauthorized disclosure of taxpayer
information by an IRS employee,                    During this reporting period, OI completed
unauthorized accesses undermine taxpayer           832 employee integrity investigations, of
confidence in the tax administration system        which 169 were UNAX investigations.
and may signal additional employee                 Also, during the same period, OI
misconduct. OI has specific programs to            investigations resulted in 4 criminal
protect the privacy, integrity, and                prosecutions and 502 administrative
availability of this sensitive information.        disciplinary actions against IRS employees.

To protect the privacy of taxpayer data, OI’s      The following cases are examples of IRS
Strategic Enforcement Division (SED)               employee and contractor integrity
employs a variety of audit trail and forensic      investigations TIGTA conducted during this
data analysis tools to proactively identify        period:
potential UNAX violators, and to identify
systemic problems or weaknesses. Once              Internal Revenue Service Revenue Officer
SED develops an investigative UNAX lead,           Charged in a $1,253,481 Tax Evasion
it is forwarded to the appropriate OI field        Conspiracy
office for local investigation. TIGTA’s            On March 10, 2010, in Maryland, IRS
UNAX program conducts investigations of            Revenue Officer Mark Hunt was indicted for
unauthorized access of the Integrated Data         conspiracy to defraud, corrupt, endeavor to
Retrieval System (IDRS -- the IRS’s                obstruct or impede the due administration of
primary system of taxpayer records at this         the internal revenue laws, and making false
time) by utilizing both proactive and              statements to investigators.
reactive methods. During this reporting
period, TIGTA has investigated, on average,        From approximately June 1999 and
22 UNAX cases per month. Of those                  continuing thereafter until approximately
investigations, more than half are                 February 2009, Hunt and taxpayers Irvin
proactively generated utilizing data-              Catlett, Walter Cullum, and James
correlation techniques by TIGTA’s forensic         Unterreiner worked in concert to execute a


36                          October 1, 2009 - March 31, 2010
                               TIGTA Semiannual Report to Congress


tax evasion scheme whereby clients of                       probation, was ordered to pay restitution in
Catlett’s tax return preparation company,                   the amount of $2,837.29, and was ordered to
Tax Resolutions, Inc., purchased                            pay a special assessment of $100.16
“investments” in various businesses owned
by Catlett. These investments were, in fact,                In June 2008, Cruz, then an IRS Tax
payments for the purchase from Catlett of                   Compliance Officer, accepted $1,000 in
bogus tax losses, which purportedly had                     cash from a taxpayer and assistance in
been generated by the businesses. Catlett,                  finding an apartment in exchange for being
Cullum, and Unterreiner then included these                 influenced in performing an audit of a 2006
losses on false and fraudulent tax returns                  U.S. Individual Income Tax Return.17
they prepared for their clients. By claiming
such losses on their tax returns, Catlett,                  Fernando Hernandez Enters Into a Plea
Cullum, and Unterreiner caused the clients                  Agreement for Bribery
to falsely reduce their amount of taxable                   On December 18, 2009, in Texas, Fernando
income and total tax owed, and caused their                 Hernandez entered into a plea agreement to
clients to claim refunds from the IRS to                    plead guilty to receiving a bribe by a public
which they were not entitled. Hunt accessed                 official. On or about June 3, 2005,
IRS records and provided Catlett with                       Hernandez, then an employee of the IRS,
confidential tax information.                               sought and demanded a cash payment of
                                                            $2,000 from a taxpayer in return for
Hunt also showed his IRS Revenue Officer                    promising that no representative of the IRS
credentials during Catlett’s meeting with                   would audit the taxpayer’s tax return.18
clients and potential clients and allowed
himself to be introduced as the “man on the                 This case was worked jointly with the
inside” of the IRS in order to assure those                 Federal Bureau of Investigation and
clients and potential clients that the tax                  Immigration and Customs Enforcement.
returns to be prepared by Tax Resolutions,
Inc., would not be the subject of adverse IRS               Jonathan Howell and Bryce Slater Charged
actions. Hunt made false statements to                      with Drug Possession on IRS Property
investigators regarding his interactions with               On February 23, 2010, Jonathan Howell and
Catlett and with his clients. Hunt also made                Bryce Slater were each charged in Utah with
false statements to investigators regarding                 possession of a controlled substance. On or
his accessing taxpayer information without                  about February 6, 2010, Howell and Slater
an official business purpose.15                             each possessed a controlled substance while
                                                            within the IRS Main Center in Ogden
This investigation was worked jointly with                  Utah.19
IRS Criminal Investigation.
                                                            This case was worked jointly with the
Fernando Cruz Sentenced for Acceptance of                   Federal Protective Service.
a Gratuity by a Public Official                             16
                                                               Source: District of Nevada Judgment in a Criminal Case 

On February 24, 2010, Fernando Cruz was                     filed March 2, 2010. 

                                                            17
sentenced in Nevada to three years of                          Source: District of Nevada Indictment filed October 22, 

                                                            2008. 

                                                            18
                                                               Source: Northern District of Texas Plea Agreement and 

15
  Source: District of Maryland Indictment filed March 10,   Factual Resume filed December 18, 2009. 

                                                            19
2010.                                                          Source: District of Utah Information filed February 23, 

                                                            2010. 


                                   October 1, 2009 - March 31, 2010                                           37
                                    TIGTA Semiannual Report to Congress


Jenni Caballero Charged with Exceeding                          core mission of collecting Federal revenue.
Authorized Access to a Computer                                 TIGTA investigates these external attempts
On October 22, 2009, in California, Jenni                       to corrupt or impede the administration of
Caballero was charged with intentionally                        internal revenue laws. Investigations in this
accessing a computer and exceeding her                          area include:
authorized access. While an employee of
the IRS, Caballerro accessed electronically                          •	 Taxpayers’ offering bribes to IRS
stored Federal tax information on the IRS’s                             employees;
electronic system 28 times without                                   •	 Use of fraudulent IRS 

authorization.20                                                        documentation; 

                                                                     •	 Phishing schemes;
Christina Maldonado Charged with                                     •	 Impersonation of IRS officials (in
Exceeding Authorized Access to a Computer                               person, telephonically, or via the
                                                                        Internet); and
On October 8, 2009, in California, Christina
                                                                     •	 Corruption of IRS programs or
Maldonado was charged with intentionally
                                                                        operations through procurement or
accessing a computer and exceeding her
                                                                        contractor fraud.
authorized access. Maldonado, while an
IRS employee, accessed electronically
                                                                During this reporting period, OI completed
stored Federal tax information on the IRS’s
                                                                268 external attempts to corrupt tax
electronic system 23 times without
                                                                administration investigations. These
authorization.21
                                                                investigations resulted in 12 criminal
                                                                prosecutions.
Adriana Olivarria Charged with Exceeding
Authorized Access to a Computer
                                                                The following cases are examples of
On October 22, 2009, in California, Adriana                     external attempts to corrupt Federal tax
Olivarria was charged with intentionally                        administration:
accessing a computer and exceeding her
authorized access. While an IRS employee,                       Fred Covey Found Guilty of Obstructing the
Olivarria accessed electronically stored                        Due Administration of Internal Revenue
Federal tax information on the IRS’s                            Laws
electronic system 17 times without
                                                                On February 18, 2010, in Idaho, Fred Covey
authorization.22
                                                                was found guilty by a jury of obstructing the
                                                                due administration of internal revenue
External Attempts to Corrupt Tax                                laws.23
Administration
External attempts to corrupt the                                On September 9, 2009, Fred Covey was
administration of internal revenue laws                         indicted in Idaho for interference with
diminish the IRS’s ability to accomplish its                    internal revenue laws. In 1993, Covey
                                                                stopped voluntarily filing tax returns as
                                                                required. On or about March 4, 2005,
20
   Source: Eastern District of California Information filed 
   Covey filed frivolous Uniform Commercial
October 22, 2009. 

21                                                              Code (UCC) financial statements against
   Source: Eastern District of California Information filed 

October 8, 2009. 

22                                                              23
   Source: Eastern District of California Information filed 
     Source: District of Idaho Special Verdict Form filed
October 22, 2009. 
                                             February 18, 2010.


38                                    October 1, 2009 - March 31, 2010
                                TIGTA Semiannual Report to Congress


three IRS employees, two of whom had been                   Alan Villaroel Sentenced for Filing
assigned to collect Covey’s outstanding tax                 Fraudulent Tax Lien Releases
debt. The UCC filings falsely claimed that                  On February 19, 2010, in Florida, Alan
each IRS employee was indebted to Covey                     Villaroel was sentenced to two years of
for $166,676,468. On or about March 4,                      probation and ordered to pay a special
2005, Covey filed a frivolous UCC financial                 assessment of $100.25 From approximately
statement against the Secretary of the                      June 8, 2005, and continuing until
Treasury falsely claiming that the Secretary                approximately April 30, 2007, Villaroel
of the Treasury was indebted to him for                     obstructed and impeded the due
$177,636,572.04.                                            administration of the internal revenue laws
                                                            by filing four false certificates of release of
On or about November 29, 2005, a U.S.                       Federal tax lien.
Department of Justice attorney filed a civil
complaint against Covey seeking to have the                 On approximately June 8, 2005, Villaroel
false and frivolous UCC financial statements                filed a fraudulent certificate of release of
filed against the IRS employees expunged.                   Federal tax lien in the amount of $20,666.66
Throughout the course of the civil suit,                    for a Federal tax lien encompassing the tax
Covey filed in court and mailed frivolous                   years 1998, 1999, and 2001. On
documents claiming that the assigned                        approximately October 17, 2006, Villaroel
judicial officer, U.S. Marshal, court clerk                 filed two fraudulent certificates of release of
and government attorneys had acted                          Federal tax lien; one in the amount of
improperly, threatening lien filings and                    $7,888.61 for a Federal tax lien
purporting to charge hundreds of thousands                  encompassing the tax years 1995 and 1996,
of dollars for trespassing and incarceration.               and the second in the amount of $7,976.74
                                                            for a Federal tax lien encompassing the tax
On or about February 22, 2009, Covey                        years 1997 and 2003. On approximately
mailed or caused to be mailed to the IRS a                  April 30, 2007, Villaroel filed a fraudulent
false and fraudulent document purporting to                 certificate of release of Federal tax lien in
pay his Federal tax debt and demanding that                 the amount of $10,475.04 for a Federal tax
his account be balanced to zero when, in                    lien encompassing tax year 1994.26
fact, no actual cash or negotiable financial
instrument was included in the mailing. On                  Bonnie Sharrit Pleads Guilty to False
May 29, 2009, Covey hand-delivered to the                   Personation and Wire Fraud
IRS a false and fraudulent document
purporting to pay his outstanding tax debt                  On February 11, 2010, Bonnie Sharrit
and demanding that his account be balanced                  pleaded nolo contendere (no contest) to
to zero when, in fact, no actual cash or                    counts 1-13 of a previous indictment.27
negotiable financial instrument was included
in the delivery.24                                          Sharrit devised a scheme to defraud a victim
                                                            company by representing to the victim
                                                            25
                                                               Source: Middle District of Florida Minutes on 

                                                            Sentencing filed February 19, 2010. 

                                                            26
                                                               Source: Middle District of Florida Indictment filed July

24
  Source: District of Idaho Indictment filed September 9,   8, 2009.

                                                            27
2009.                                                          Source: District of Massachusetts Clerk Notes from 

                                                            February 11, 2010, Charge of Plea Hearing.


                                    October 1, 2009 - March 31, 2010                                           39
                            TIGTA Semiannual Report to Congress


company and its principals that they had            company’s behalf, nor did she perform
certain tax problems resulting in the               services for the victim company to resolve
imposition of government liens and levies           any alleged tax problems.28
and that she could assist in the resolution of
such matters based upon her status as a             Martha Sue Warshaw Sentenced for
contract auditor for the IRS and her tax            Obstructing and Impeding the Due
expertise.                                          Administration of Internal Revenue Laws
                                                    On January 8, 2010, in Florida, Martha Sue
Through her false representations, Sharrit          Warshaw was sentenced to 18 months in
induced the victim company to retain her to         prison, one year of supervised probation and
resolve the alleged tax problems. Sharrit           ordered to pay a special assessment of $100.
then prepared and sent to the victim                Warshaw was sentenced on one count of
company numerous fictitious documents               obstructing and impeding the due
purportedly prepared by various State and           administration of IRS laws.29 She prepared
Federal Government agencies concerning              and sent fraudulent IRS release-of-levy
alleged tax issues. Certain of these                forms in an attempt to allow her spouse to
documents purportedly reflected that Sharrit        gain access to funds subject to IRS levies.
had made settlement payments to the                 Warshaw also created and presented to an
government in connection with the alleged           IRS employee copies of false and fictitious
outstanding tax liabilities.                        canceled checks payable to the IRS and
                                                    letters confirming the cashing of the checks
On at least two occasions, Sharrit traveled to      as proof of payment of taxes.30
the victim company’s offices in Canada
where she inspected company documents               Man Sentenced for Impersonating a
and met with members of the victim                  Government Employee and Possession of a
company’s board of directors. Sharrit issued        Firearm in Furtherance of a Drug Trafficking
at least one invoice and requested advances,        Crime
expenses and payment of monies to be held
in escrow. As a result, Sharrit fraudulently        On January 12, 2010, in Kansas, Herb
induced the victim company to issue                 Leeper was sentenced on one count of
payments to her for claimed expenses,               impersonating an employee of the United
wages, and settlement of outstanding                States and one count of possession of a
liabilities with various State and Federal          firearm in furtherance of a drug trafficking
government agencies.                                crime.31 Leeper impersonated an IRS
                                                    employee and in such pretend character
The victim company issued payments to               falsely demanded papers, documents, and
Sharrit in the total amount of $46,687.50.          things of value. Leeper was sentenced to
Upon discovery of Sharrit’s scheme, the             time served and upon release from prison,
victim company placed stop payment orders           Leeper shall be on supervised release for a
in connection with two checks made payable
                                                    28
to Sharrit in the total amount of $26,687.50.          Source: District of Massachusetts Indictment filed 

Those funds were recovered by the victim            November 2, 2006.

                                                    29
                                                       Source: Southern District of Florida Sentencing 

company.                                            Document filed January 8, 2010.

                                                    30
                                                       Source: Southern District of Florida Plea Agreement 

Sharrit paid none of the money over to any          filed October 23, 2009. 

                                                    31
government agencies on the victim                      Source: District Court of Kansas Sentencing Document 

                                                    filed January 12, 2010. 



40                           October 1, 2009 - March 31, 2010
                                TIGTA Semiannual Report to Congress


term of five years; he was ordered to pay a                    notices (he failed to file a petition with the
$200 assessment and forfeit $2,784 in                          Tax Court within 90 days of the issuance of
cash.32                                                        the notices of deficiency), and the IRS
                                                               assessed the tax and the additions to the tax
This case was worked jointly with the                          identified in the notices of deficiencies.
United States Marshals Service and the
Bureau of Alcohol, Tobacco Firearms and                        On May 17, 2004, the IRS issued Notice
Explosives.                                                    CP90 (Final Notice – Notice of Intent to
                                                               Levy and Notice of Your Right to a
Robert Wiegman Sentenced for False                             Hearing) to Merritt indicating that he owed
Personation of an IRS Officer                                  $154,288.71 for the taxable year 1999 and
On January 14, 2010, in Georgia, Robert                        that the IRS may file a Notice of Federal
Wiegman was sentenced to 12 months in                          Tax Lien in order to protect the
prison to be followed by one year supervised                   Government’s interest or take his property
release and he was ordered to pay a $100                       or rights to property. In response to the
special assessment.33 Wiegman had                              notice, Merritt submitted to the IRS a
previously pleaded guilty to pretending to be                  fictitious financial obligation or “Certified
an officer of the IRS, and in such pretend                     Draft” in the amount of $154,288.71, as
character demanding money from a victim.34                     payment for the outstanding tax liability for
                                                               the taxable year 1999. Merritt submitted the
William Merritt Pleaded Guilty to                              “Certified Draft” on May 24, 2004.
Attempting to Interfere with Administration                    On August 4, 2004, the IRS issued Letter
of Internal Revenue Laws                                       1058 (Final Notice – Notice of Intent to
                                                               Levy and Notice of Your Right to a
On December 4, 2009, in New Mexico,                            Hearing) to Merritt indicating that he owed
William “Bill” Merritt pleaded guilty to                       $311,814.46 for the taxable years 1998
Count three of a three-count indictment,                       through 2000 ($87,883.26 for 1998,
charging a violation of attempting to                          $156,298.39 for 1999, and $67,632.81 for
interfere with Administration of Internal                      2000) and that the IRS may file a Notice of
Revenue Laws. Merritt agreed to pay                            Federal Tax Lien to protect the
restitution in the total approximate principal                 Government’s interest or take his property
amount of $311,814.46 to the IRS.                              or rights to property. In response to the
                                                               letter, Merritt submitted to the IRS another
Merritt was an insurance salesman who                          fictitious obligation or “Certified Draft” in
failed to file Federal income tax returns for                  the amount of $311,814.46, dated August
the years 1998 through 2004. The IRS                           12, 2004, as payment for his outstanding tax
prepared substitute for returns (SFRs) for the                 liabilities for the years 1998 through 2000.
years 1998 through 2000 and issued
statutory notices of deficiency to him for                     The “Certified Draft” that Merritt submitted
those years. Merritt defaulted on these                        on May 24, 2004, as payment for his
                                                               outstanding tax liability, along with a “letter
32
   Source: District Court of Kansas Superseding Indictment 
   of advice” to Treasury Secretary John Snow
filed July 23, 2008.
                                          in the amount of $154,288.71, was fictitious
33
    Source: Middle District of Georgia Minute Sheet of 
       in that it had no financial value or legal
Sentencing Hearing filed January 14, 2010. 

34
    Source: Middle District of Georgia Change of Plea filed

                                                               validity as determined by the United States
October 28, 2009, and Indictment filed February 19, 2009. 
    Department of Treasury. It contained a non-

                                    October 1, 2009 - March 31, 2010                                   41
                                 TIGTA Semiannual Report to Congress


existent routing number (printed as if on a                   •	     Attorneys;
check) and a non-existent “Personal                           •	     CPAs;
Treasury UCC Contract Trust Account”                          •	     Enrolled agents;
number. The “Certified Draft” that Merritt                    •	     Enrolled actuaries; and
submitted on August 12, 2004, in the                          •	     Appraisers.
amount of $311,814.46 to Treasury
Secretary Snow was fictitious in the same                Unenrolled tax return preparers have limited
particulars as the one he submitted on May               rights to represent taxpayers. The rules
24, 2004, and it also had no financial value             governing practice of an unenrolled tax
or legal validity.                                       return preparer are set forth in Revenue
                                                         Procedure 81-38, found in IRS Publication
While these “Certified Drafts” that Merritt              470. The Inspector General Act of 1978, as
submitted were clearly designed to appear to             amended, granted TIGTA investigative
be legitimate financial instruments, Treasury            authority and responsibility for tax
Department document examiners analyzed                   practitioner investigations. The Office of
the aforementioned instruments and                       Investigations has initiated tax practitioner
determined that they were without any value              investigations at the request of IRS officials;
whatsoever. The TIGTA Forensic Science                   on its own initiative; or in response to
Laboratory examined the signatures on the                complaints received from taxpayers, other
“Certified Drafts” and determined that they              individuals, and IRS employees.
were inkjet produced signatures consistent
with Merritt’s handwriting samples which                 OI investigates complaints against:
he produced on July 18, 2005, pursuant to an
IRS summons.35                                                •	     Practitioners and unenrolled tax
                                                                     return preparers who attempt to
This case was worked jointly with IRS                                corrupt IRS employees and/or
Criminal Investigation Division (CID).                               IRS programs that have no
                                                                     employee involvement.
Tax Practitioner Investigations                               •	     Practitioners and unenrolled tax
In January 2010, the IRS proposed new                                return preparers, which also
procedures regarding the regulation of tax                           involve alleged misconduct by
practitioners. TIGTA’s OI investigates                               IRS employees.
complaints of unethical practices against
practitioners who represent individuals                  Treasury Employee Rules of Conduct
before the IRS and unenrolled tax return                 require IRS employees to report to TIGTA
preparers. Practitioners are authorized by               any alleged criminal misconduct or violation
the IRS to practice or represent taxpayers               by an IRS employee of Office of
before the IRS. The regulations governing                Government Ethics (OGE) Standards,
practitioners are contained in Treasury                  Treasury Supplemental Standards or
Department Circular 230, derived from 31                 Treasury Employee Rules of Conduct. This
C.F.R. Part 10.                                          includes, but is not limited to, attempts by a
                                                         practitioner to corrupt an IRS employee or
Practitioners include:                                   IRS program. IRS employees must report
                                                         all other allegations concerning unethical
35
  Source: District of New Mexico Plea Agreement filed
                                                         practices by a practitioner or unenrolled
December 4, 2009.                                        agent through their supervisory channels.


42                                October 1, 2009 - March 31, 2010
                               TIGTA Semiannual Report to Congress


The following cases are examples of a tax                   On February 4, 2010, Stewart pleaded guilty
practitioner investigation that TIGTA                       and was sentenced to 24 months in prison,
conducted during this period:                               three years of supervised release and ordered
                                                            to pay $13,409.75 in restitution and a $200
Man Sentenced in Scheme to Defraud His                      assessment.37
Tax Return Customers and the IRS
On September 2, 2009, in Wisconsin, Terry                   This case was jointly worked with the IRS’s
Stewart was charged in a scheme to defraud                  CID.
both his tax return customers and the IRS.
                                                            William Murray charged in Scheme to
                                                            Defraud Tax Preparation Clients
Stewart worked in the Madison, Wisconsin,
area as a self-employed tax return preparer                 On February 10, 2010, in California,
doing business as Madison Urban Tax                         William Murray was charged with mail
Service. From approximately January 2007,                   fraud as a result of his scheme to defraud, in
through approximately June 2007, Stewart                    that he falsely pretended that he was
devised a scheme to defraud his tax return                  receiving clients’ money for the purpose of
customers and the IRS.                                      paying their tax debts and for making
                                                            investments, when in fact he was using the
For the purpose of executing the scheme to                  money for other purposes.
defraud, Stewart transmitted via the Internet
a series of 19 tax returns to the IRS. In each              Murray induced approximately 52 tax
of these returns, Stewart intentionally made                preparation clients to write their tax payment
false statements concerning the taxpayer’s                  checks to the Murray & Company Trust
qualification for the Earned Income Credit,                 Account by falsely assuring them that he
itemized deductions, dependants, and/or                     would make tax payments to the IRS and the
income, which triggered a higher tax refund                 Franchise Tax Board on their behalf.
than the taxpayer was entitled to receive.                  Murray also falsely told 13 of his clients that
                                                            he would invest money for them if they
Stewart had some of his customers’ tax                      wrote checks to a U.S. Financial Services
refunds issued in the form of refund                        account.
anticipation loan debit cards. Stewart spent
all or part of the value of the debit cards for             Murray caused clients’ addresses to be
his own use. Stewart also gave cash or                      changed with the IRS so that IRS
checks to other customers in amounts                        correspondence would be directed to his
significantly lower than what they should                   office. When the IRS sent demands for
have received for their tax refunds and then                payment, Murray did not forward that
kept the customer’s refund.                                 correspondence to the clients. When the
                                                            IRS contacted clients directly, Murray
Stewart stole approximately $38,000 of the                  falsely told the clients that he had paid their
tax refunds that should have been provided                  taxes as he promised and that the IRS had
to his customers.36                                         erred in its accounting. Murray did
                                                            occasionally pay clients’ tax obligations or
                                                            purport to return their investments. Murray
36                                                          37
  Source: Western District of Wisconsin Information filed     Source: Western District of Wisconsin Judgment in a
September 2, 2009.                                          Criminal Case filed February 4, 2010.

                                   October 1, 2009 - March 31, 2010                                         43
                                   TIGTA Semiannual Report to Congress


did this by using money that he received                     agreement, Itochu Corporation made no
from other clients. Clients received                         admission of liability or wrongdoing;
approximately $3,507,502 in this fashion.                    however, Itochu Corporation agreed to pay
                                                             the United States $6,750,000 to resolve
Murray did not pay clients’ tax obligations                  allegations that it had violated the False
and invest their money as he had                             Claims Act.39
represented. Rather, Murray converted their
money to his own use. Using client funds,                    On February 12, 2010, CCID received a
Murray remodeled his residence, funded a                     related civil settlement agreement between
limousine business, bought luxury and                        the United States Government and Lincoln
collectible automobiles, and purchased                       Fabric Corporation which was made in
numerous luxury items. Murray also bought                    compromise of disputed claims. Under the
gifts worth tens of thousands of dollars each                terms of the agreement, Lincoln Fabric
for a succession of girlfriends. By using                    Corporation made no admission of liability
false pretenses and representations, Murray                  or wrongdoing; however, Lincoln Fabric
induced victims to give him approximately                    Corporation agreed to pay the United States
$13,357,133.38                                               $4,000,000 to resolve allegations that it had
                                                             also violated the False Claims Act.40
This case was worked jointly with IRS’s
CID.                                                         During the course of a CCID procurement
                                                             investigation, information was developed
Procurement Fraud Investigations                             indicating that the Zylon material used in the
                                                             manufacture of ballistic vests was defective.
Contract fraud can be defined as either                      The vests had been purchased by TIGTA
internal or external corruption of the Federal               and issued to law enforcement personnel.
acquisition process in such a way that the                   They were intended to protect law
government is harmed through overcharges,                    enforcement officers and agents from
unallowable fees, and/or defective products                  potentially deadly gun shot strikes to the
or services. The types of procurement fraud                  torso area. But the ballistic vests were
investigations TIGTA conducts include:                       defective. Itochu Corporation is a United
                                                             States subsidiary of Toyobo Corporation, the
     •   Product Substitution;                               inventor of the Zylon fiber. Itochu is based
     •   Labor Cost Mischarging;                             in New York, NY, and is used as the
     •   Defective Pricing;                                  fiduciary entity that facilitated shipping
     •   Antitrust Violations; and                           Zylon fiber to the body armor industry in the
     •   False Claims.                                       United States. Itochu Corporation knew that
                                                             the Zylon material was defective and
On December 7, 2009, TIGTA’s Contract                        quickly degraded when exposed to heat,
Fraud & Criminal Intelligence Division                       light, and humidity. This defective fiber
(CCID) received a civil settlement                           was used in bulletproof vests sold by Second
agreement between the United States
Government and Itochu Corporation, which                     39
was made in compromise of disputed                              Source: Settlement Agreement entered into by Itochu
                                                             Corporation and the United States Department of Justice
contractual claims. Under the terms of the                   December 7, 2009.
                                                             40
                                                                Source: Settlement Agreement entered into by Itochu
38
  Source: Eastern District of California Information filed   Corporation and the United States Department of Justice
February 10, 2010.                                           February 12, 2010.


44                                   October 1, 2009 - March 31, 2010
                        TIGTA Semiannual Report to Congress


Chance Body Armor. The bulletproof vests
were purchased by the TIGTA and other
Federal law enforcement agencies, as well
as State and local law enforcement agencies
that were reimbursed with Federal funds.

CCID developed information that Lincoln
Fabric Corporation is a Canadian
corporation with United States subsidiaries.
Lincoln Fabric Corporation is based in St.
Catharines Ontario, Canada, and used its
manufacturing plant in Geneva, Alabama, to
facilitate the weaving of Zylon fabric used
by the body armor industry in the United
States.

              ************




                           October 1, 2009 - March 31, 2010   45
     TIGTA Semiannual Report to Congress




46    October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress



      Advancing Oversight of America’s Tax System 


T     IGTA’s Office of Inspections and
      Evaluations provides responsive,
timely, and cost-effective inspections and
                                                   Inspection of the Internal Revenue Service’s
                                                   Pandemic Influenza Preparedness Plan
                                                   Phase I
evaluations of IRS challenge areas,                This inspection determined if the IRS met
providing TIGTA additional flexibility and         the requirements directed to Federal
capability to produce value-added products         agencies in preparing for a potential
and services to improve tax administration.        outbreak of a pandemic influenza like the
                                                   H1N1 virus.
The Office has two primary product lines:
Inspections and Evaluations.                       In 2006, the Homeland Security Council
                                                   requested that department and agency heads
Inspections:                                       certify that their department or agency was
                                                   addressing the applicable elements of
   •	 Provide factual and analytical               pandemic planning set forth in a checklist it
      information;                                 developed. Since 2006, preparedness efforts
   •	 Monitor compliance;                          have matured and in August, 2008 the
   •	 Measure performance;                         checklist was updated to reflect current
   •	 Assess the effectiveness and 
               Federal Government guidance.
      efficiency of programs and 

      operations; 
                                The Department of the Treasury used the
   •	 Share best practices; and                    Homeland Security Council checklist to
   •	 Inquire into allegations of fraud,           assess pandemic preparations by each of the
      waste, abuse, and mismanagement.             Treasury Bureaus. We chose to use the
                                                   same criteria and share the results of this
Evaluations:                                       inspection with the Department of the
                                                   Treasury’s Director, Emergency Programs.
   •	 Provide in-depth reviews of specific
      management issues, policies, or              We found that the IRS had addressed the
      programs;                                    majority of the items on the pandemic
                                                   checklist issued by the Homeland Security
   •	 Address government-wide or multi-
                                                   Council. This included prioritizing essential
      agency issues; and                           operations in the event of a pandemic
   •	 Develop recommendations to                   outbreak, communicating information to
      streamline operations, enhance data          IRS employees, and taking steps to protect
      quality, and minimize inefficient and        their health and safety. However, the IRS
      ineffective procedures.                      did not specifically address items in the
                                                   checklist related to employees with
                                                   disabilities, any changes needed with regard
The following summaries highlight some of
                                                   to procurements or contractors, teleworking
the significant activities I&E has engaged in
                                                   as a response to a potential pandemic, and
during this six-month reporting period:


                            October 1, 2009 - March 31, 2010                              47
                           TIGTA Semiannual Report to Congress


adequate tests and exercises for pandemic          result, taxpayers receive more professional
scenarios.                                         and more courteous service to assist them in
                                                   complying with the tax law.
TIGTA recommended that the IRS Chief,
Agency-wide Shared Services should take            During our evaluation, we found that first,
immediate steps to finalize the items “in          the IRS reorganized from a geographically
process” and address the items in the              based organization to a customer-based
checklist not yet completed. In their              organization structure with four operating
response to this interim report, IRS officials     divisions, each charged with complete
stated that the Director, Physical Security        responsibility for serving taxpayers with
and Emergency Preparedness, Agency-wide            similar needs. Second, a new mission
Shared Services, had taken action to               statement focusing on taxpayer service was
complete the Homeland Security Council             developed. To align with the new mission,
checklist items that were in progress and not      organizational performance measures were
yet completed.                                     changed to the three equally weighted
Reference No. 2010-IE-R001                         measures of business results, customer
                                                   service, and employee satisfaction. In
The Internal Revenue Service Restructuring         addition, the IRS implemented safeguards to
and Reform Act of 1998 was Substantially           ensure enforcement statistics are no longer
Implemented but Challenges Remain                  used as a basis for employee evaluations.
This evaluation determined whether the
goals of the IRS Restructuring and Reform          Third, efforts to modernize computer
Act of 1998 were substantially achieved by         systems and business processes were also
the IRS. RRA 98 was broadly scoped                 undertaken. With technology changes, the
legislation with the goal to transform the         IRS made return filing easier by offering
IRS into a modern financial services               expanded electronic filing, creating an
organization. This transformation was to be        extensive Web site with a broad range of
accomplished by providing taxpayers                information, and installing a state-of-the-art
customer service similar to the customer           telephone routing system to more effectively
service provided by private-sector financial       and efficiently answer taxpayer calls. In
institutions, including electronic access to       addition, 71 taxpayer protections and rights
customer accounts. The IRS transformation          required by RRA 98 were engineered into
was a massive undertaking that required            operational processes and procedures.
changes to virtually every aspect of the           Finally, the IRS emphasized employee
organization.                                      engagement throughout the change process.
                                                   There was a consistent upward trend in
RRA 98 required the IRS to change its              employee job-satisfaction survey results that
organizational culture, restructure,               indicates that the IRS is providing a quality
modernize, and improve taxpayer protection         work environment.
and rights. With a new focus on taxpayer
service, the IRS shifted its emphasis from an      While the IRS has made significant strides
enforcement-first culture to a more customer       in transforming into a modern financial
service-oriented culture; made progress in         services organization, major challenges
modernizing its business processes and             remain. The Business Systems
computer systems and provided taxpayers            Modernization effort remains a work in
with greater protections and rights. As a          progress. In addition, there are human


48                          October 1, 2009 - March 31, 2010
                       TIGTA Semiannual Report to Congress


capital management challenges for issues
such as replacing an aging workforce,
developing a comprehensive employee-
skills-gap assessment, measuring the
effectiveness of training, and implementing
a performance-based pay system. Finally, in
the compliance arena, estimating
noncompliance and effectively addressing
repeat offenders are continuing challenges.

TIGTA made no recommendations in this
report concerning implementation of RRA
98. Management had no comment on the
draft report.
Reference No. 2010-IE-R002


              ************




                          October 1, 2009 - March 31, 2010   49
     TIGTA Semiannual Report to Congress




50    October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress



  American Recovery and Reinvestment Act of 2009 


T      he American Recovery and
       Reinvestment Act (Recovery Act) was
signed into law by President Obama on
                                                   spent by TIGTA to complete those
                                                   activities. The Deputy Inspector General
                                                   also coordinates TIGTA’s activities with the
February 17, 2009. It is intended as an            Board.
unprecedented effort to jumpstart our
economy, create or save millions of jobs,          I&E staff administered the Board’s first
and put a down payment on addressing long-         coordinated survey of Agency Contracting
neglected challenges so our country can            and Grants staff qualifications. The results
thrive in the 21st century. The Recovery           of this survey were posted on Recovery.gov
Act is an extraordinary response to a crisis       in November 2009.
unlike any since the Great Depression, and
includes measures to modernize our Nation's        OA’s Oversight Program plan identifies its
infrastructure, enhance energy                     planned actions to address the Recovery
independence, expand educational                   Act. OA reviewed the Recovery Act
opportunities, preserve and improve                legislation, the Office of Management and
affordable health care, provide tax relief,        Budget Implementing Guidance, and
and protect those in greatest need.                summaries of key IRS-related provisions
                                                   prepared by the Senate Finance and House
Inspectors General are responsible for             Ways and Means Committees, IRS Web
reviewing agency performance and use of            sites, and the Department of the Treasury
Recovery Act funds. Recovery Act reports           Recovery Act Program information in
produced by Inspectors General are required        determining the scope of the Recovery Act
to be forwarded to the Recovery                    on tax administration. This plan is expected
Accountability and Transparency Board (the         to evolve over the next four and one-half
Board). The Board is responsible for               years and will be updated periodically to
coordinating and conducting oversight of           reflect OA’s current Recovery Act actions.
covered funds in order to prevent waste,
fraud, and abuse. The Board is also charged        The following summaries highlight the
with issuing specific periodic reports and         Recovery Act ongoing and/or completed
serving as a central repository for all            audits and evaluations completed by OA and
Recovery Act-related Office of Inspector           I&E during this six-month reporting period:
General reports.
                                                   IRS’s Implementation of the OMB
The Recovery Act requires each Federal             Guidelines for Recovery Act of 2009
agency that receives Recovery Act funds to         The Office of Management and Budget
designate a Senior Accountable Official for        (OMB) issued two memoranda41 that
Recovery Act activities. Within TIGTA,             provided guidance for carrying out and
that responsibility has been assigned to the       reporting on the programs and activities
Deputy Inspector General for Inspections
and Evaluations. The Deputy has overseen           41
                                                     M-09-10, Initial Implementing Guidance for the
the development of TIGTA’s Recovery Act            American Recovery and Reinvestment Act of 2009,
work plan and reports on the completion of         February 18, 2009 and M-09-15, Updated Implementing
                                                   Guidance for the American Recovery and Reinvestment
planned activities and the amount of funds         Act of 2009, April 3, 2009.

                            October 1, 2009 - March 31, 2010                                     51
                           TIGTA Semiannual Report to Congress


enacted in the Recovery Act to effectively          important that the IRS remain vigilant in
manage activities under the Recovery Act.           ensuring that dollar limitations for bonds
TIGTA’s review concentrated on the                  are not exceeded as the Federal
following:                                          Government works to stimulate the
                                                    economy.
     •	 Transparency and reporting;
     •	 Information collection and 
                There were no recommendations in this
        dissemination; 
                            report. IRS management reviewed the
     •	 Budget execution; and                       report before it was issued and offered
     •	 Risk management.                            clarifying comments and suggestions,
                                                    which I&E took into account.
The IRS has implemented a comprehensive             Reference No. 2010-11-016
process that is compliant with OMB’s
guidance for the Recovery Act. The IRS has          Millions of Taxpayers May Be Negatively
the reporting processes in place that should        Affected by the Reduced Withholding
address OMB’s requirements. The IRS says            Associated with the Making Work Pay Credit
these processes will allow for transparency         The Making Work Pay Credit is to be
and accountability in the use of Recovery           advanced to taxpayers through their wages
Act administrative funds and will provide           by a decrease in Federal income tax
IRS the ability to identify and track these         withholding. This creates the vulnerability
expenditures separately from its regular            that some taxpayers may have their taxes
appropriations. IRS has also submitted the          underwithheld at the end of tax years 2009
required weekly reports summarizing                 and 2010. If taxpayers are advanced more
administrative costs incurred. TIGTA made           of the Making Work Pay Credit than they
no recommendations in this report.                  are entitled to, they may ultimately owe
Reference No. 2010-IE-R004                          taxes when filing their tax years 2009 and
                                                    2010 tax returns and may be assessed
Observations About Annual Dollar Limits             estimated tax penalties.
for American Recovery and Reinvestment
Act of 2009 Bonds                                   TIGTA recommended that the IRS:
The Recovery Act authorizes State and
local governments to issue more than $45               •	 Increase media coverage and
billion in new bonds, some with tax                       consider other forms of
incentives to bond issuers or bondholders,                advertisement in addition to the
and some with volume caps on the dollar                   mediums already being used and to
amounts that can be issued. The Tax                       the extent possible, target these
Exempt Bonds office will need to be                       communications to taxpayers who
vigilant to ensure that Recovery Act bonds                may be adversely affected by under-
are not issued in excess of annual limits. If             withholding as a result of the Making
annual limits are exceeded, the Federal                   Work Pay Credit; and
Government risks losing future tax revenue             •	 Authorize the use of the withholding
because excess Recovery Act bonds may                     tables that were in effect prior to the
not be eligible for tax credits or may be                 enactment of the Recovery Act for
taxable. Due to the challenging economic                  pension payments to help prevent a
times the country is facing, it is even more              significant number of pensioners



52                           October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress


       from being negatively affected by            provide tax relief to working or retired
       the Making Work Pay Credit.                  Americans and their families. The business
                                                    taxpayer provisions will cost more than $74
IRS management agreed with the first                billion and provide several tax relief
recommendation and the importance and               incentives for businesses. The IRS is
value of exploring every avenue for                 unable to verify eligibility for the majority
communicating to the public about the               of Recovery Act benefits at the time a tax
Making Work Pay Credit. The IRS plans               return is processed.
additional communication efforts. The IRS,
however, did not agree with the second              TIGTA did not include recommendations in
recommendation and stated that the                  this report, but has ongoing and planned
procedure published in May 2009 that may            audits that will focus on specific Recovery
be used by pension plan administrators to           Act benefits and credits. It will include
adjust the withholding on pension                   recommendations as appropriate as part of
distributions to retirees who are not eligible      these reviews.
for the Making Work Pay Credit
approximated the withholding rate                   The IRS did not provide a written response
schedules used prior to the enactment of the        to this report.
Making Work Pay Credit. The IRS stated              Reference No. 2010-41-011
that providing additional sets of
withholding tables would be burdensome,             Interim Results of the 2010 Filing Season
costly, and confusing for the IRS,                  The filing season is critical for the IRS
taxpayers, and employers.                           because it is the time when most individuals
                                                    file their income tax returns and contact the
TIGTA disagreed with the IRS. The                   IRS if they have questions about specific
recommendation made by TIGTA to                     tax laws or filing procedures.
allow pension plan administrators to use the
withholding tables which were in place prior        As of March 5, 2010, the IRS received
to the implementation of the Recovery Act           nearly 61.3 million tax returns. Of those,
rather than two sets of tables would                51.6 million were electronically filed
significantly reduce the burden the IRS is          (approximately equal to this time last year)
now placing on these taxpayers and would            and nearly 9.7 million were filed on paper (a
be consistent with the process being used by        decrease of almost 20 percent from this time
the Federal Government’s Office of                  last year). The IRS issued nearly 52 million
Personnel Management.                               refunds totaling roughly $160.2 billion.
Reference No. 2010-41-002

                                                    The IRS recognized the difficulty taxpayers
Evaluation of the Internal Revenue Service’s
                                                    may have in claiming new credits and/or
Capability to Ensure Proper Use of Recovery
                                                    deductions. In an attempt to reduce this
Act Funds
                                                    difficulty, the IRS created new forms,
The Recovery Act contains 56 tax                    schedules, and instructions. The IRS also
provisions, 20 individual taxpayer                  developed programming to identify
provisions, and 36 business taxpayer                taxpayers who may not have claimed credits
provisions. The individual taxpayer                 to which they were entitled at the time they
provisions will cost nearly $252 billion and        filed their tax returns. In addition, expanded

                             October 1, 2009 - March 31, 2010                              53
                            TIGTA Semiannual Report to Congress


math error authority is enabling the IRS to         As of March 6, 2010, the IRS provided
stop the erroneous claiming of                      960,161 services on the Individual Master
credits/deductions. However, implementing           File Balance Due application, which is
new tax legislation is still presenting some        243,983 (34 percent) more than the 716,248
challenges for the IRS, which has resulted in       services it provided for the same period last
the following:                                      year.

     •	 Increases in error inventories              This report was prepared to provide interim
        resulting from taxpayers’ errors;           information only. Therefore, no
     •	 Delays in completing programming            recommendations were made in the report.
        resulting in the inability to process       Reference No. 2010-41-047
        tax returns with First-Time
        Homebuyer Credit claims until               Initial Published Guidance for Recovery Act
        February 16, 2010;                          Bonds Was Complete, Accurate, and
     •	 Payment of $24.2 million in                 Consistent
        erroneous Making Work Pay and
        Government Retiree Credits; and             The Recovery Act authorizes new and
     •	 The inability to identify and prevent       expanded bond financing subsidies of more
        erroneous claims at the time tax            than $57.8 billion. However, this figure
        returns are processed, resulting in         could be much higher because one type of
        more than $4.7 million in erroneous         tax credit bond, known as Build America
        Plug-in Vehicle Credits.                    Bonds, was not given a limit. These
                                                    financing subsidies enable State and local
Moreover, errors are hindering the success          governments to borrow at lower costs for
of IRS processing of individual tax returns         capital projects and also target programs for
via its modernized e-file system.                   schools and energy projects. The IRS
                                                    quickly published guidance to help bond
In addition, as of March 5, 2010, the IRS           issuers understand how to issue tax-exempt
had identified 119,484 tax returns with             and tax credit bonds intended to stimulate
$733,195,576 claimed in fraudulent refunds.         the economy by preserving and creating
It prevented the issuance of $720,596,970           jobs.
(98 percent) of the fraudulent refunds being
claimed. Finally, from the beginning of the         TIGTA made no recommendations in this
2010 Filing Season, taxpayer demand for             report; however, key IRS management
toll-free telephone assistors has been higher       officials reviewed it prior to issuance and
than planned. The IRS stated that call              agreed with the facts and conclusions
demand is higher because more taxpayers             presented in the report.
than planned are calling to ask account-            Reference No. 2010-11-035
related questions. It has received more calls
from individuals who owe taxes and                                 ************
believes the economic downturn is part of
the reason.




54                           October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress



                          Congressional Testimony 


D      uring this reporting period, Inspector General J. Russell George provided testimony to
       Congress regarding the IRS’s efforts to administer the First-Time Homebuyer Credit.


                  Administration of the First-Time Homebuyer Credit
On October 22, 2009, Mr. George provided testimony to the House Ways and Means
Subcommittee on Oversight regarding the IRS’s administration of the First-Time Homebuyer
Credit (the Credit) and TIGTA recommendations to improve the efficiency of the IRS’s
implementation of the Credit.

With the passage of the Housing and Economic Recovery Act of 2008, the First-Time
Homebuyer Credit was created and the IRS was charged with ensuring the Credit was
appropriately claimed and properly administered. The American Recovery and Reinvestment Act
of 2009 extended and expanded the Credit, increasing the responsibility of the IRS and the need
for effective oversight.

In his testimony, Mr. George noted that the Recovery Act mandates TIGTA to oversee the IRS’s
efforts on all Recovery matters, including the implementation of Recovery tax credits. His
testimony discussed how the IRS had allowed thousands of taxpayers to claim millions of dollars
in First-Time Homebuyer Credits to which they were not entitled. Mr. George stated that key
controls were missing to prevent individuals from erroneously or fraudulently claiming the
Credit and receiving erroneous refunds of up to $8,000.

Mr. George’s testimony expressed concern about the IRS’s ability to verify eligibility and
discussed TIGTA’s key audit findings: among them, that some taxpayers claimed the Credit for
homes which they have not yet purchased, and others claimed the Credit despite indications they
were not first-time homebuyers. He brought to the attention of Congress the fact that individuals
as young as four years old had erroneously received the Credit.

Mr. George said that he is pleased to see that the IRS agreed to improve its controls in response
to TIGTA’s findings, and assured Congress that the bureau will continue to provide oversight of
the IRS’s efforts. He noted that the next report assessing the administration of the Credit will be
issued in spring 2010. As a result of Mr. George’s testimony, Congress incorporated TIGTA’s
recommendations when it voted to extend the Credit until April 2010.

                           ***********************************




                            October 1, 2009 - March 31, 2010                                 55
     TIGTA Semiannual Report to Congress




56    October 1, 2009 - March 31, 2010
                                 TIGTA Semiannual Report to Congress



                 An Organization that Values Its People 


T      IGTA is challenged to maintain its “Best Places to Work” status and will streamline
       processes, utilize distributed work teams and prototype new technologies and
methodologies to meet this challenge. TIGTA recognizes and rewards employees for their
contributions toward achieving the organization’s priorities and outcomes.

On January 26, 2010, the Inspector General J. Russell George recognized the exemplary
achievements of TIGTA employees through the 2009 Inspector General Award Program. Each
recipient was recognized for his or her commitment to excellence in public service on behalf of
TIGTA, exemplifying the true characteristics of the award criteria. The recipients'
accomplishments demonstrate high mission impact; major contributions to customers and
stakeholders; ingenuity and innovation; and significant quantifiable results. There were four
individual award recipients (Angela Druen, Robert Courtenay, William Coull, and Amy Peters
Jones); four group awards from the Office of Audit (Tax Return Preparer Strategy Team,
Individual Taxpayer Identification Number Team, Questionable Refund Program II Team, and
CADE/AMS Security Audit Team); two group awards from the Office of Investigations
(Training Team and BNT Investigation); one group award each from the Office of Inspections
and Evaluations (Tax Assistance Center Inspection Team) and Office of Mission Support-
Human Capital (Personnel Security Team). Below are some pictures taken during the ceremony.


             Office of Investigation                                        Office of Investigation
          (Individual Award Recipient)                                   (Individual Award Recipient)




(Left to right) - Joseph Hungate, Principal Deputy Inspector   (Left to right) - Joseph Hungate, Principal Deputy Inspector
General; J. Russell George, Inspector General; Special         General; J. Russell George, Inspector General; Special
Agent Angela Druen; and Steven Jones, Deputy Inspector         Agent William Coull; and Steven Jones, Deputy Inspector
General for Investigations                                     General for Investigations




                                     October 1, 2009 - March 31, 2010                                             57
                                    TIGTA Semiannual Report to Congress



                 Office of Audit                                             Office of Audit

          (Recipient for Group Award)                                 (Recipient for Group Award)





(Left to right) - Joseph Hungate, Principal Deputy IG; J.   (Left to right) - Joseph Hungate, Principal Deputy IG; J.
Russell George, Inspector General; Paula Johnson,           Russell George, Inspector General; Jeff K. Jones,
(accepting the IG Award on behalf of the Tax Return         (accepting the IG Award on behalf of the Questionable
Preparer Strategy Team); and Michael Phillips, Deputy       Refund Program II Team); and Michael Phillips, Deputy
Inspector General for Audit                                 Inspector General for Audit

                 Office of Audit
                                            Office of Audit

          (Recipient for Group Award)
                                (Recipient for Group Award)





(Left to right) - Joseph Hungate, Principal Deputy IG; J.   (Left to right) - Joseph Hungate, Principal Deputy IG; J.
Russell George, Inspector General; Sharon Buford,           Russell George, Inspector General; Kent Sagara, (accepting
(accepting the IG Award on behalf of the Individual         the IG Award on behalf of the CADE/AMS Security Audit
Taxpayer Identification Number Team); and Michael           Team); and Michael Phillips, Deputy Inspector General for
Phillips, Deputy Inspector General for Audit                Audit




58                                   October 1, 2009 - March 31, 2010
                                 TIGTA Semiannual Report to Congress


             Office of Investigation                                     Office of Investigation
          (Recipient for Group Award)                                 (Recipient for Group Award)




(Left to right) - Joseph Hungate, Principal Deputy IG; J.   (Left to right) - Joseph Hungate, Principal Deputy IG; J.
Russell George, Inspector General; Michael Radetic,         Russell George, Inspector General; Special Agents Michael
(accepting the IG Award on behalf of the Office of          Isenberg and Anthony Kordich, BNT Investigation; and
Investigations Training Team); and Steven Jones, Deputy     Steven Jones, Deputy Inspector General for Investigations
Inspector General for Investigations
                                                                        Office of Mission Support - 

     Office of Inspections and Evaluations                                    Human Capital 

         (Recipient for Group Award)                                   (Recipient for Group Award





(Left to right) - Joseph Hungate, Principal Deputy IG; J.   (Left to right) - Joseph Hungate, Principal Deputy IG; J.
Russell George, Inspector General; James Douglas            Russell George, Inspector General; Michael O’Halloran
(accepting the IG Award on behalf of the Tax Assistance     (accepting the IG Award on behalf of the Personnel
Center Inspection Team); and David Holmgren, Deputy         Security Team); and Larry Koskinen, Associate Inspector
Inspector General for Inspections and Evaluations           General for Mission Support




                                     October 1, 2009 - March 31, 2010                                          59
     TIGTA Semiannual Report to Congress




60    October 1, 2009 - March 31, 2010
                             TIGTA Semiannual Report to Congress




                               Audit Statistical Reports 

                              Reports with Questioned Costs 

TIGTA issued no audit reports with questioned costs during this semiannual reporting period.1
The phrase “questioned costs” means costs that are questioned because of:

    •	 An alleged violation of a provision of a law, regulation, contract, or other requirement
       governing the expenditure of funds;
    •	 A finding, at the time of the audit, that such cost is not supported by adequate 

       documentation (an unsupported cost); or 

    •	 A finding that expenditure of funds for the intended purpose is unnecessary or 

       unreasonable. 


The phrase “disallowed cost” means a questioned cost that management, in a management
decision, has sustained or agreed should not be charged to the Government.

                                      Reports With Questioned Costs
                                                                                         Unsupported
                                                                    Questioned Costs
              Report Category                         Number                                 Costs
                                                                     (in thousands)
                                                                                        (in thousands)
1. Reports with no management decision
at the beginning of the reporting period                  7                $165,522           $82,147
2. Reports issued during the reporting
period                                                    0                        $0              $0
3. Subtotals (Item 1 plus Item 2)                         7                $165,522           $82,147
4. Reports for which a management
decision was made during the reporting
period.2 3
   a. Value of disallowed costs                           1                      $48               $0
   b. Value of costs not disallowed                       1                      $55               $0
5. Reports with no management decision
at the end of the reporting period (Item 3
minus Item 4)                                             6                $165,418           $82,147
6. Reports with no management decision
   within six months of issuance                          6                $165,418           $82,147
1
  See Appendix II for identification of audit reports involved. 

2
  Difference due to rounding. 

3
  Includes one report in which IRS management allowed part of the questioned cost. 




                                 October 1, 2009 - March 31, 2010                                 61
                                   TIGTA Semiannual Report to Congress


                             Reports with Recommendations that 

                                Funds Be Put to Better Use 

TIGTA issued one audit report during this semiannual reporting period with the recommendation
that funds be put to better use.1 The phrase “recommendation that funds be put to better use”
means a recommendation that funds could be used more efficiently if management took actions
to implement and complete the recommendation, including:
       •	 Reductions in outlays;
       •	 Deobligations of funds from programs or operations;
       •	 Costs not incurred by implementing recommended improvements related to operations;
       •	 Avoidance of unnecessary expenditures noted in pre-award reviews of contract 

          agreements; 

       •	 Prevention of erroneous payment of the following refundable credits: Earned Income
          Tax Credit and Child Tax Credit; and
       •	 Any other savings that are specifically identified.
The phrase “management decision” means the evaluation by management of the findings and
recommendations included in an audit report, and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.

                    Reports With Recommendations That Funds Be Put To Better Use
                                                                                      Amount
                                 Report Category                         Number          (in
                                                                                     thousands)
1. Reports with no management decision at the beginning of the
reporting period                                                            0               $0
2. Reports issued during the reporting period                               1          $69,989
3. Subtotals (Item 1 plus Item 2)                                           1          $69,989
4. Reports for which a management decision was made during the
reporting period
    a. Value of recommendations to which management agreed
           i. Based on proposed management action                           1         $69,989
          ii. Based on proposed legislative action                          0              $0
    b. Value of recommendations to which management did not
    agree                                                                   0               $0
5. Reports with no management decision at end of the
   reporting period (Item 3 minus Item 4)                                   0               $0
6. Reports with no management decision within six months of
issuance                                                                    0               $0
1
    See Appendix II for identification of audit reports involved.




62                                  October 1, 2009 - March 31, 2010
                           TIGTA Semiannual Report to Congress


                       Reports with Additional Quantifiable 

                         Impact on Tax Administration 

In addition to questioned costs and funds put to better use, OA has identified measures that
demonstrate the value of audit recommendations to tax administration and business operations.
These issues are of interest to IRS and Treasury Department executives, Congress, and the
taxpaying public, and are expressed in quantifiable terms to provide further insight into the value
and potential impact of OA’s products and services. Including this information also promotes
adherence to the intent and spirit of the Government Performance and Results Act (GPRA).

Definitions of these additional measures are:
Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Proper denial of claims for refunds, including recommendations that
prevent erroneous refunds or efforts to defraud the tax system.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the need for,
frequency of, or time spent on contacts, record keeping, preparation, or costs to comply with tax
laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights) granted to
taxpayers by law, regulation, or IRS policies and procedures. These rights most commonly arise
when filing tax returns, paying delinquent taxes, and examining the accuracy of tax liabilities.
The acceptance of claims for and issuance of refunds (entitlements) are also included in this
category, such as when taxpayers legitimately assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account information
(privacy). Processes and programs that provide protection of tax administration, account
information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to reduce
cost while maintaining or improving the effectiveness of specific programs; resources saved
would be available for other IRS programs. Also, the value of internal control weaknesses that
resulted in an unrecoverable expenditure of funds with no tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance, and
integrity of data, including the sources of data and the applications and processing thereof,
used by the organization to plan, monitor, and report on its financial and operational activities.
This measure will often be expressed as an absolute value (i.e., without regard to whether a
number is positive or negative) of overstatements or understatements of amounts recorded on
the organization’s documents or systems.
Protection of Resources: Safeguarding human and capital assets, used by or in the custody of
the organization, from inadvertent or malicious injury, theft, destruction, loss, misuse,
overpayment, or degradation.



                               October 1, 2009 - March 31, 2010                              63
                                    TIGTA Semiannual Report to Congress


 The number of taxpayer accounts and dollar values shown in the following chart were derived
 from analyses of historical data, and are thus considered potential barometers of the impact of
 audit recommendations. Actual results will vary depending on the timing and extent of
 management’s implementation of the corresponding corrective actions, and the number of
 accounts or subsequent business activities affected as of the dates of implementation. Also, a
 report may have issues that affect more than one outcome measure category.

                Reports With Additional Quantifiable Impact On Tax Administration
                                                        Number             Number of
                                                                                           Dollar Value
             Outcome Measure Category                      of              Taxpayer
                                                                                          (in thousands)
                                                        Reports1            Accounts

           Increased Revenue                                 8                  912,274   $   1,918,875
           Revenue Protection                                2                     905    $   2,941,388
           Reduction of Burden on
           Taxpayers                                         5                  231,565
           Taxpayer Rights and
           Entitlements at Risk                              3                  356,553   $         197
           Taxpayer Privacy and Security                     2                  158,879
           Inefficient Use of Resources                      3                   14,600   $      34,242
           Reliability of Management
           Information                                       6
           Protection of Resources                           0
       1
           See Appendix II for identification of audit reports involved.

 Management did not agree with the outcome measures in the following reports:
      •	 Increased Revenue: Reference Numbers 2010-10-018, 2010-30-024, 2010-30-023, 2010­
         30-025, & 2010-40-030;
      •	 Taxpayer Burden: Reference Number 2010-40-032;
      •	 Taxpayer Rights and Entitlements at Risk: Reference Number 2010-30-019;
      •	 Reliability of Information: Reference Number 2010-40-005; and
      •	 Inefficient Use of Resources: Reference Numbers 2010-30-029, 2010-40-033, & 2010­
         40-045.
The following reports contained quantifiable impacts other than the number of taxpayer accounts
and dollar value:

      •	 Reliability of Management Information: Reference Numbers 2010-40-005, 2010-10-018,
         2010-30-019, 2010-30-029, 2010-10-037, and 2010-40-042.




 64                                  October 1, 2009 - March 31, 2010
                                   TIGTA Semiannual Report to Congress



                            Investigations Statistical Reports 


                                            Significant Investigative Achievements
                                              October 1, 2009 – March 31, 2010

        Complaints/Allegations Received by TIGTA
             Complaints against IRS Employees                                                           2,287
             Complaints against Non-IRS Employees                                                       2,467

           Total Complaints/Allegations                                                                 4,754

        Status of Complaints/Allegations Received by TIGTA
             Investigations Initiated                                                                   1,590
                                        1
             In Process within TIGTA                                                                      492
             Referred to IRS for Action                                                                   578
             Referred to IRS for Information Only                                                         742
             Referred to a Non-IRS Entity2                                                                 6
             Closed with No Referral                                                                    1,061
             Closed with All Actions Completed                                                            285
           Total Complaints                                                                             4,754

        Investigations Opened and Closed
             Total Investigations Opened                                                                1,913
             Total Investigations Closed                                                                1,638

        Financial Accomplishments
             Embezzlement/Theft Funds Recovered                                                       $6,502,973
             Court Ordered Fines, Penalties, and Restitution                                         $15,081,256
             Out-of-Court Settlements                                                                     0

           Total Financial Accomplishments                                                           $21,584,049

1
    Complaints for which final determination had not been made at the end of the reporting period.
2
    A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: The IRS made 75 referrals to TIGTA that would more appropriately be handled by the IRS, and therefore
were returned to the IRS. These are not included in the total complaints shown above.




                                        October 1, 2009 - March 31, 2010                                           65
                                      TIGTA Semiannual Report to Congress



                                     Status of Closed Criminal Investigations
                          1                                    Employee      Non-Employee              Total
    Criminal Referrals
        Referred – Accepted for Prosecution                           31                59               90
        Referred – Declined for Prosecution                           278             264               542
        Referred – Pending Prosecutorial Decision                     28                77              105
    Total Criminal Referrals                                          337             400               737
    No Referral                                                       465             476               941

1
    Criminal referrals include both Federal and State dispositions.

                                                    Criminal Dispositions2
                                                                                   Non-
                                                                Employee                                 Total
                                                                                  Employee
        Guilty                                                        24              51                 75
        Nolo Contendere (no contest)                                   1               2                  3
        Pre-trial Diversion                                            1               5                  6
                              3
        Deferred Prosecution                                           2               2                  4
        Not Guilty                                                     0               3                  3
                    4
        Dismissed                                                      3               5                  8
        Total Criminal Dispositions                                   31              68                 99

2
  Final criminal dispositions during the reporting period. These data may pertain to investigations referred
criminally in prior reporting periods and do not necessarily relate to the investigations referred criminally in the
Status of Closed Criminal Investigations table above.
3
  Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with
certain conditions imposed by the court. Upon the defendant’s completion of the conditions, the court dismisses the
case. If the defendant fails to fully comply, the court reinstates prosecution of the charge.
4
  Court dismissed charges.

                        Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                         Total
        Removed, Terminated or Other                                                                    321
        Suspended/Reduction in Grade                                                                    108
        Oral or Written Reprimand/Admonishment                                                          113
        Closed – No Action Taken                                                                         62
        Clearance Letter Issued                                                                          72
        Employee Resigned Prior to Adjudication                                                          89
        Non-Internal Revenue Service Employee Actions6                                                  370
        Total Administrative Dispositions                                                             1,135

5
  Final administrative dispositions during the reporting period. These data may pertain to investigations referred 

administratively in prior reporting periods and do not necessarily relate to the investigations closed in the 

Investigations Opened and Closed table.

6
  Administrative actions taken by the IRS against non-IRS employees. 





66                                     October 1, 2009 - March 31, 2010
                                    TIGTA Semiannual Report to Congress



                                                    Appendix I 

                           Statistical Reports – Other 

                          Audit Reports with Significant 

                        Unimplemented Corrective Actions 

 The Inspector General Act of 1978 requires identification of significant recommendations described
 in previous semiannual reports for which corrective actions have not been completed. The following
 list is based on information from the IRS Office of Management Control’s automated tracking
 system maintained by Treasury management officials.

                   IRS
               Management                             Projected          Report Title and Recommendation Summary
Reference     Challenge Area                         Completion           (F = Finding No., R = Recommendation No.,
Number                                  Issued          Date                             P = Plan No.)
2001-30-052    Tax Compliance          March 2001                 Program Improvements Are Needed to Encourage Taxpayer Compliance
                  Initiatives                                     in Reporting Foreign Sourced Income

                                                       12/15/10   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives on
                                                                  foreign sourced income.

2004-20-131   Security of the IRS      September                  The Use of Audit Trails to Monitor Key Networks and Systems Should
                                         2004                     Remain Part of the Computer Security Material Weakness

                                                       04/30/12   F-2, R-4, P-1. Develop and implement a reasonable approach for reviewing
                                                                  audit trails over major applications.


2005-40-026    Providing Quality        February                  Processes Used to Ensure the Accuracy of Information for Individual
               Taxpayer Service           2005                    Taxpayers on IRS.gov Need Improvement
                  Operations
                                                       12/31/10   F-1, R-1, P-4. Develop a process to ensure that only authorized personnel
                                                                  have access to IRS.gov content.
                                                       12/31/10   F-1, R-2, P-1, P-2. Enhance the IRS’s content management software
                                                                  application to provide the ability to identify specific content accessed or
                                                                  revised by individual users.

2005-20-024   Security of the IRS      March 2005                 The Disaster Recovery Program Has Improved, But It Should Be Reported
                                                                  as a Material Weakness Due to Limited Resources and Control
                                                                  Weaknesses

                                                       12/31/10   F-1, R-1, P-1, P-5. Report a disaster recovery program material weakness to
                                                                  the Department of the Treasury as part of the IRS’s Federal Managers’
                                                                  Financial Integrity Act of 1982 annual evaluation of controls and include any
                                                                  new or currently underway activities in the corrective action plan.

2005-10-107     Human Capital           July 2005                 Improved Policies and Guidance Are Needed for the Telework Program

                                                                  F-1, R-1, P-1. Ensure an IRS-wide Flexiplace Program policy is developed
                                                       05/15/10   and implemented that addresses all the elements recommended by the Office
                                                                  of Personnel Management.
                                                                  F-2, R-2, P-1. Ensure Flexiplace Program training is provided as needed to
                                                       05/15/10   help address productivity concerns.




                                      October 1, 2009 - March 31, 2010                                                       67
                                       TIGTA Semiannual Report to Congress



                   IRS
               Management                              Projected             Report Title and Recommendation Summary
Reference     Challenge Area                          Completion              (F = Finding No., R = Recommendation No.,
Number                                   Issued          Date                                P = Plan No.)
2005-10-129     Providing Quality        September                    Progress Has Been Made, but Further Improvements Are Needed in the
                Taxpayer Service           2005                       Administration of the Low Income Taxpayer Clinic Grant Program
                   Operations
                                                        05/31/10      F-1, R-1, P-2. Establish goals and performance measures for the Low
                                                                      Income Taxpayer Clinic program to assist the Congress and IRS in
                                                                      evaluating the success of the program.

2005-30-154   Processing Returns and     September                    The Clarity of Math Error Notices Has Been Improved, but Further
              Implementing Tax Law         2005                       Changes Could Enhance Notice Clarity and Reduce Unnecessary Notices
                Changes During the
                 Tax Filing Season                                    F-1, R-2, P-1. Revise tax statement tables contained on notices to include
                                                        04/15/10      specific amounts from at least some line items on which taxpayers made
                                                                      errors on their tax returns.


2007-30-062      Tax Compliance         March 2007                    Social Security and Medicare Taxes Are Not Being Properly Assessed on
                    Initiatives                                       Some Tips and Certain Types of Wage Income

                                                      P-1: 01/15/11   F-3, R-2, P-1, P-2. Develop a compliance program to help ensure that only
                                                      P-2: 07/15/11   qualifying individuals use the new form to report wage income and that the
                                                                      appropriate amounts of Social Security and Medicare taxes are assessed for
                                                                      self-employed taxpayers or employers that are misclassifying their
                                                                      employees.

2007-10-082       Tax Exempt             May 2007                     Screening Tax-Exempt Organizations Filing Information Provides
                  Organizations                                       Minimal Assurance That Potential Terrorist-Related Activities Are
                                                                      Identified

                                                        01/31/10      F-1, R-1, P-1. Develop and implement a long-term strategy to automate the
                                                                      matching of Forms 1023 and 990 information against a consolidated terrorist
                                                                      watch list to initially identify potential terrorist activities related to tax-
                                                                      exempt organizations.

2007-20-121   Systems Modernization     August 2007                   Annual Assessment of the Business Systems Modernization Program
                    of the IRS
                                                        12/31/10      F-1, R-1, P-1. Continue to address Modernization program corrective actions
                                                                      from TIGTA and Government Accountability Office reports through the
                                                                      Highest Priority Initiatives process.

2008-40-087   Complexity of the Tax     March 2008                    Individual Retirement Account Contributions and Distributions Are Not
                     Law                                              Adequately Monitored to Ensure Tax Compliance

                                                        12/15/11      F-1, R-1, P-1. Analyze Forms 5498 to identify the causes of the errors and
                                                                      possible corrective actions.
                                                        03/15/11      F-3, R-2, P-1. Consider requiring custodians to report estimated required
                                                                      minimum distribution amounts on the Form 5498.

2008-40-167      Tax Compliance         August 2008                   The Withholding Compliance Program Is Improving Taxpayer
                    Initiatives                                       Compliance; However, Additional Enforcement Actions Are Needed

                                                        05/15/10      F-1, R-2, P-2. Develop employer examination criteria for referring those
                                                                      employers that did not follow lock-in-letter instructions.
                                                        12/15/10      F-1, R-4, P-1. Research and develop criteria to expand the use of the Form
                                                                      W-4 civil penalty beyond the current limitation of referrals and special
                                                                      projects.
                                                        12/15/13      F-2, R-1, P-1. Create a single data entry point for processing Withholding
                                                                      Compliance Program cases, and provide lock-in-letter issuance authority to
                                                                      other IRS functions.




 68                                     October 1, 2009 - March 31, 2010
                                   TIGTA Semiannual Report to Congress



                   IRS
               Management                             Projected                 Report Title and Recommendation Summary
Reference     Challenge Area                         Completion                  (F = Finding No., R = Recommendation No.,
Number                                  Issued          Date                                    P = Plan No.)
2008-40-171   Processing Returns and    September                        Most Tax Returns Prepared By a Limited Sample of Unenrolled Preparers
              Implementing Tax Law        2008                           Contained Significant Errors
                Changes During the
                 Tax Filing Season                      06/15/10         F-1, R-1, P-1. Develop and require a single identification number to control
                                                                         and monitor all paid preparers.

2008-40-180      Tax Compliance         September                        Most Automated Underreporter Notices Are Correct; However, Additional
                    Initiatives           2008                           Oversight Is Needed

                                                        09/15/11         F-1, R-2, P-1. Simplify the Computer Paragraph 2000 notices issued by the
                                                                         Automated Underreporter Program.

2009-40-024      Erroneous and          December                         The Earned Income Program Has Made Advances, However, Alternatives
               Improper Payments          2008                           To Traditional Compliance Methods Are Needed to Stop Billions of
                                                                         Dollars in Erroneous Payments

                                                        12/15/11         F-1, R-1, P-1. Conduct a study to identify alternative processes that will
                                                                         expand the IRS’s ability to effectively and efficiently identify and adjust
                                                                         erroneous Earned Income Tax Credit (EITC) claims for which data show that
                                                                         the taxpayer does not meet the EITC requirements.

2009-40-032    Taxpayer Protection      February                         The Process Taxpayers Must Use to Report Complaints Against Tax
                   and Rights             2009                           Return Preparers Is Ineffective and Causes Unnecessary Taxpayer Burden

                                                                         F-2, R-1, P-1. Develop a form, both web-based and paper, specifically for
                                                        06/15/10         tax return preparer complaints that routes to the correct function based on
                                                                         type of tax return preparer and includes the items necessary for the IRS to
                                                                         appropriately evaluate the complaint.

2009-10-039    Taxpayer Protection      February                         Tax Practitioners Promoting Abusive Tax Shelters Are Still Able to
                   and Rights             2009                           Represent Taxpayers Before the Internal Revenue Service

                                                        07/15/10         F-1, R-6, P-1. Develop a methodology to perform proactive analyses of
                                                                         information available from IRS functions to identify and appropriately
                                                                         address licensed tax practitioners engaged in potentially disreputable activity.

2009-10-041      Human Capital          February                         Workforce Planning Efforts Are Hindered by Lack of Comprehensive
                                          2009                           Information on Employee Skills Levels

                                                        04/15/10         F-1, R-1, P-1. Develop a workable process that can be used for the agency-
                                                                         wide skills gap assessment of Mission Critical Occupations.
                                                    P-1, P-3: 02/15/11   F-1, R-2, P-1, P-2, P-3. Develop a detailed plan to guide the IRS’s overall
                                                      P-2: 11/15/10      skills gap assessment effort and coordinate the multifunctional participation
                                                                         necessary to ensure the success of the effort.

2009-30-059    Taxpayer Protection      May 2009                         Increased Management Oversight of the Sensitive But Unclassified Waste
                   and Rights                                            Disposal Process Is Needed to Prevent Inadvertent Disclosure of
                                                                         Personally Identifiable Information

                                                        10/15/10         F-1, R-2, P-1. Revise the IRM with regard to mandating site visits to
                                                                         shred/burn facilities and establishing minimum standards for: the
                                                                         performance of site visits; the documentation required; and maintenance of
                                                                         these files.
                                                        03/15/10         F-3, R-1, P-1, P-2. Provide complete and accurate guidance and education
                                                                         regarding the safeguarding and proper disposal of sensitive data.




                                       October 1, 2009 - March 31, 2010                                                              69
                                      TIGTA Semiannual Report to Congress



                   IRS
               Management                            Projected          Report Title and Recommendation Summary
Reference     Challenge Area                        Completion           (F = Finding No., R = Recommendation No.,
Number                                  Issued         Date                             P = Plan No.)
2009-30-068   Taxpayer Compliance       May 2009                 Expanded Information Reporting Should Increase the Proper Reporting of
                   Initiatives                                   Farm Income, But Additional Steps Could Be Taken

                                                      02/15/10   F-1, R-1, P-1. Coordinate with the United States Department of Agriculture
                                                                 officials to minimize the number of information returns submitted with
                                                                 mismatched names and identification numbers.
                                                      03/15/11   F-2, R-1, P-1. Develop compliance strategies for ensuring more Commodity
                                                                 Credit Corporation income payments are properly reported.

2009-30-076     Providing Quality       May 2009                 Elderly Taxpayers Would Benefit by the Internal Revenue Service and Tax
                Taxpayer Service                                 Professionals Partnering to Reduce Unnecessary Filings

                                                      04/15/10   F-1, R-1, P-1. Ensure consistency between the IRS’s public Web site and
                                                                 written products by reviewing and, if necessary, revising the IRS’s most
                                                                 common publications and Form 1040/1040A instructions.

2009-20-071   Systems Modernization     June 2009                Modernization Program Uncertainties Are Affecting the Account
                    of the IRS                                   Management Services Project Development

                                                      06/01/10   F-2, R-1, P-1. Propose modernization task orders with the ability to readily
                                                                 account for system development activity funding on a release basis, and, for
                                                                 major modernization development projects, on a milestone basis.
                                                                 F-2, R-2, P-1. Reinforce governance procedures to managers about release-
                                                      02/01/10   specific project funding, the need to gain approval of funding reallocations,
                                                                 and requirements to communicate these changes to stakeholders.

2009-40-087    Taxpayer Protection      June 2009                Inadequate Management Information Has Adversely Affected the
                   and Rights                                    Acceptance Agent Program

                                                      08/15/10   F-1, R-1, P-1. Ensure that the Real-Time System is modified to generate
                                                                 periodic and regular reports, including ad hoc reports that can be timely
                                                                 generated when necessary.
                                                      12/15/10   F-1, R-2, P-1. Develop procedures and internal controls to monitor the
                                                                 Acceptance Agent Program to ensure all rules and regulations are being
                                                                 followed and the Program is operating as intended.

2009-10-095         Improving           July 2009                An Improved Project Management Process Is Needed to Measure the
                 Performance and                                 Impact of Research Efforts on Tax Administration
                Financial Data for
               Program and Budget                     07/15/10   F-1, R-1, P-1. Develop and implement effective business measures to better
                    Decisions                                    assess whether IRS research efforts achieve program objectives and show
                                                                 their impact on improving tax administration.
                                                      07/15/10   F-2, R-1, P-1. Establish research standards and practices that define what
                                                                 activities constitute a research project and specify the required documentation
                                                                 that should be prepared and maintained for all research projects.
                                                                 F-3, R-1, P-1. Develop guidance to ensure basic project management
                                                      07/15/10   information is captured, tracked, monitored, and allows for consistent and
                                                                 comparable reporting of IRS research efforts.


2009-10-096   Taxpayer Compliance       July 2009                A Corporate Approach Is Needed to Provide for a More Effective Tax-
                   Initiatives                                   Exempt Fraud Program

                                                      06/10/10   F-1, R-1, P-1. Develop and implement a corporate fraud approach with
                                                                 centralized oversight for the Tax Exempt and Government Entities (TE/GE)
                                                                 Division.
                                                      06/15/10   F-1, R-2, P-1. Ensure that all TE/GE offices follow IRS procedures and
                                                                 contact the Small Business/Self-Employed Fraud Office to determine
                                                                 whether cases with affirmative indications of fraud should be pursued as
                                                                 fraud development cases.




 70                                    October 1, 2009 - March 31, 2010
                                   TIGTA Semiannual Report to Congress



                   IRS
               Management                             Projected             Report Title and Recommendation Summary
Reference     Challenge Area                         Completion              (F = Finding No., R = Recommendation No.,
Number                                  Issued          Date                                P = Plan No.)
2009-40-098   Processing Returns and    July 2009                    Inadequate Data on Paid Preparers Impedes Effective Oversight
              Implementing Tax Law
                Changes During the                     08/15/10      F-1, R-1, P-1. Establish a requirement that paid preparers be compliant with
                 Tax Filing Season                                   their own Federal tax filing requirements in order to be allowed to prepare
                                                                     tax returns for others for a fee.
                                                       07/15/10      F-2, R-2, P-1. Develop a method that imposes a penalty on preparers who do
                                                                     not provide an identification number on tax returns they prepare.
                                                       08/15/10      F-2, R-3, P-1. Develop a comprehensive data management system that
                                                                     allows the IRS, at a minimum, to determine the population of preparers by
                                                                     eliminating discrepancies and duplicates between systems.


2009-10-107         Improving           July 2009                    Controls Over Real Property Management Have Improved; However,
                 Performance and                                     Additional Efforts Are Needed to Address Planned Staffing Increases
                Financial Data for
               Program and Budget                      02/15/10      F-1, R-1, P-1. Develop an overall estimate of planned hiring by location for
                    Decisions                                        FY 2009 and 2010 and compare this estimate to its existing space in order to
                                                                     identify potential gaps in space availability.
                                                       06/15/10      F-1, R-2, P-1. Develop a comprehensive national policy regarding
                                                                     workstation sharing for the Flexi-place Program and the ratio of flexi-place
                                                                     employees to a shared workstation.
                                                     P-1: 01/15/11   F-1, R-4, P-1, P-2. Develop procedures requiring that building level
                                                     P-2: 07/15/10   projected space needs assessments include consideration of the impact of
                                                                     workstation sharing, and be periodically reconciled in total to agency-wide
                                                                     projected staffing levels.


2009-20-102   Systems Modernization    August 2009                   Changing Strategies Led to the Termination of the My IRS Account
                    of the IRS                                       Project

                                                       10/15/10      F-1, R-1, P-1. Complete a long-term strategy for the My IRS Account
                                                                     project.
                                                       02/15/10      F-2, R-1, P-1. Ensure that a strategy to develop and deploy an enterprisewide
                                                                     electronic authentication solution is developed as quickly as possible to allow
                                                                     online projects that require secure access to be deployed without
                                                                     experiencing similar cost delays.

2009-30-106      Erroneous and         August 2009                   More Progress Is Needed to Reduce the Millions of Dollars Paid in Interest
               Improper Payments                                     on Improperly Frozen Refunds

                                                       01/15/11      F-1, R-1, P-2. Ensure that employees receive periodic computer alerts to
                                                                     review large-dollar frozen taxpayer accounts for credits that can be released
                                                                     and that the freeze on accounts is systemically released when credits fall
                                                                     below the threshold by implementing agreed-upon computer programming
                                                                     modifications.

2009-40-112   Taxpayer Compliance      August 2009                   Mortgage Interest Data Could Be Used to Pursue More Nonfilers and
                   Initiatives                                       Underreporters

                                                     P-1: 12/15/11   F-1, R-1, P-1, P-2. Explore the feasibility of making greater use of mortgage
                                                     P-2: 12/15/10   interest data to pursue additional nonfilers and underreporters for audit.


2009-30-114   Taxpayer Compliance      August 2009                   Deficiencies Exist in the Control and Timely Resolution of Whistleblower
                   Initiatives                                       Claims

                                                       07/15/10      F-1, R-2, P-3. Perform a physical reconciliation of 7623(b) claim
                                                                     information to ensure the information captured from existing systems and
                                                                     input into the newly implemented single inventory control system is accurate.




                                       October 1, 2009 - March 31, 2010                                                         71
                                       TIGTA Semiannual Report to Congress



                   IRS
               Management                             Projected          Report Title and Recommendation Summary
Reference     Challenge Area                         Completion           (F = Finding No., R = Recommendation No.,
Number                                   Issued         Date                             P = Plan No.)
2009-10-121         Improving            September                The Taxpayer Advocate Service Should Reevaluate the Roles of Its Staff
                 Performance and           2009                   and Improve the Administration of the Taxpayer Advocacy Panel
                Financial Data for
               Program and Budget                      11/15/10   F-1, R-1, P-1. Revise its time tracking system and require the staff to track
                    Decisions                                     hours by activity.
                                                       02/15/10   F-1, R-2, P-2, P-3. Reevaluate the structure and size to ensure an appropriate
                                                                  balance between staff and budgetary resources used to support the Panel.
                                                       11/15/11   F-2, R-1, P-1. Reevaluate the roles of the staff assigned to assist the Panel
                                                                  and establish guidance to ensure that the Panel functions independently.
                                                       05/15/10   F-2, R-2, P-1. Revise the charter to clarify the liaison role that employees
                                                                  provide Panel members and accurately reflect the dual roles of members.
                                                       10/15/10   F-3, R-1, P-3. Establish and implement a process to validate data in the
                                                                  database on an annual basis, prior to the issuance of the Panel’s annual report.
                                                       01/15/11   F-3, R-2, P-1. Establish a process to follow up with the IRS on the Panel’s
                                                                  recommendations under consideration for future implementation.
                                                       10/15/10   F-4, R-1, P-1, P-2, P-3. Establish and follow formal guidance for conducting
                                                                  tax compliance checks, to include using the Integrated Data Retrieval System
                                                                  (IDRS) as a tool for accomplishing this.
                                                       01/15/11   F-4, R-2, P-1. Develop procedures for verifying the good standing of
                                                                  licensed practitioners serving on the Panel.



2009-40-129   Processing Returns and     September                Evaluation of the Planning, Computation and Issuance of the Recovery
              Implementing Tax Law         2009                   Rebate Credit
                Changes During the
                 Tax Filing Season                     09/15/10   F-1, R-2, P-1. Issue recovery payments to the 258,550 individuals identified
                                                                  who did not receive the full recovery rebate credit to which they were entitled
                                                                  as a result of a computer programming and Error Resolution function errors.


2009-40-130   Processing Returns and     September                Repeated Efforts to Modernize Paper Tax Return Processing Have Been
              Implementing Tax Law         2009                   Unsuccessful; However, Actions Can Be Taken to Increase Electronic
                Changes During the                                Filing and Reduce Processing Costs
                 Tax Filing Season
                                                       01/15/11   F-1, R-2, P-1. Refocus the Modernized Submission Processing Concept to
                                                                  include implementing a process to convert paper filed tax returns prepared by
                                                                  individuals using a tax preparation software package into an electronic
                                                                  format.

2009-40-131      Erroneous and           September                Increased Automated Controls Could Further Improve Accountability
               Improper Payments           2009                   Over Manual Refunds

                                                       01/15/11   F-1, R-2, P-1. Ensure the Requestor’s employee identification number is
                                                                  captured in electronic data files for non-IDRS manual refunds.
                                                       01/15/11   F-1, R-3, P-1. Establish a process to regularly obtain the electronic data file
                                                                  that includes key information relative to those non-IDRS manual refunds for
                                                                  use in monitoring the manual refund program.
                                                       01/15/11   F-2, R-1, P-1. Develop a process to provide for a systemic managerial
                                                                  approval to increase accountability.




 72                                     October 1, 2009 - March 31, 2010
                                  TIGTA Semiannual Report to Congress



                   IRS
               Management                         Projected          Report Title and Recommendation Summary
Reference     Challenge Area                     Completion           (F = Finding No., R = Recommendation No.,
Number                                Issued        Date                             P = Plan No.)
2009-40-138   Taxpayer Protection    September                Combat Zone Indicators on Taxpayer Accounts Are Frequently Inaccurate
                  and Rights           2009
                                                              F-2, R-1, P-1. Improve the process for identifying joint filers serving in the
                                                   01/15/12   military to properly identify which individual(s) is/are in a combat zone to
                                                              ensure appropriate enforcement actions are taken.
                                                   01/15/12   F-2, R-2, P-1. Improve the process for ensuring that Combat Zone indicators
                                                              are reversed when an exit date is received from the Department of Defense
                                                              (DOD) for those individuals who file a joint tax return but do not maintain
                                                              the same order of primary and secondary taxpayer.
                                                   01/15/12   F-3, R-1, P-1. Discontinue providing the option to taxpayers of self-
                                                              identifying by annotating a tax return with “Combat Zone” and continue to
                                                              provide individuals with the option of self-identifying by telephone or
                                                              electronically.
                                                   12/15/11   F-3, R-2, P-1. Take action to correct the 339,027 taxpayers with inaccurate
                                                              Combat Zone indicators that were incorrectly reactivated.
                                                   01/15/12   F-4, R-1, P-1. Develop a process to identify and resolve unpostable records
                                                              when entry and exit date information provided by the DOD is unable to be
                                                              posted to an individual’s tax account.
                                                   01/15/12   F-4, R-2, P-1. Take actions to resolve the 458 DOD Combat Zone
                                                              transactions posted to invalid Social Security Numbers and revise the DOD
                                                              validation process to ensure accurate posting of entry and exit date
                                                              information.
                                                   12/15/11   F-5, R-1, P-1. Develop a process to validate Combat Zone service at the time
                                                              an individual self-identifies.
                                                   01/15/12   F-5, R-2, P-1. Improve the process for individuals who self-identify their
                                                              Combat Zone service by email with the establishment of a secure fillable
                                                              form with the required data fields.




2009-10-139     Erroneous and        September                Controls Over the Contracting Officer’s Technical Representative
              Improper Payments        2009                   Workforce Were Ineffective, Resulting in Significant Risks to the
                                                              Government

                                                   02/15/10   F-1, R-1, P-1. Establish and implement cross-cutting guidance that
                                                              effectively ensures that the IRS provides appropriate contract monitoring to
                                                              reduce acquisition risks.
                                                   02/15/10   F-1, R-2, P-1. Identify all IRS employees agency-wide performing COTR-
                                                              related duties and ensure that they are formally delegated authority by the
                                                              responsible CO on their procurement duties, appropriately trained, and
                                                              certified in accordance with Federal acquisition requirements.
                                                   12/15/10   F-2, R-1, P-1. Reevaluate their current approach and expand the reviews of
                                                              COTR contract files to ensure that reviews are routinely performed to
                                                              substantiate that relevant, accurate, and complete documentation is being
                                                              received, verified, and retained to support the contractors’ billed expenses.
                                                   12/15/10   F-3, R-1, P-1. Ensure that supervisors are knowledgeable of the oversight
                                                              requirements for the contracts their employees are assigned to monitor and
                                                              evaluate all aspects of their employees’ contract management performance.
                                                   12/15/10   F-4, R-1, P-1. Ensure that consistent ongoing on-the-job support is provided
                                                              for newly selected or less experienced COTRs to enable the COTRs to learn
                                                              and effectively perform their responsibilities.




                                    October 1, 2009 - March 31, 2010                                                    73
                                    TIGTA Semiannual Report to Congress



                   IRS
               Management                          Projected          Report Title and Recommendation Summary
Reference     Challenge Area                      Completion           (F = Finding No., R = Recommendation No.,
Number                                Issued         Date                             P = Plan No.)
2009-40-140   Security of the IRS     September                Taxpayer Information Is at Risk When Ordering Copies of Tax Returns
                                        2009                   and Tax Return Transcripts

                                                    10/15/10   F-1, R-2, P-1. Develop internal controls and provide training to ensure that
                                                               units use the Transcript Delivery System’s automated process to mail
                                                               transcripts, send copies of tax returns and transcripts only to the address of
                                                               record, and properly maintain requests for copies of tax returns and
                                                               transcripts.
                                                    03/15/10   F-3, R-1, P-1. Ensure IRS.gov is updated to prominently display the option
                                                               and benefits of ordering a transcript using the Integrated Customer Contact
                                                               environment.
2009-41-144     Recovery Act          September                The Internal Revenue Service Faces Significant Challenges in Verifying
                                        2009                   Eligibility for the First-Time Homebuyer Credit

                                                    06/15/10   F-1, R-1, P-1. Initiate actions to determine whether those taxpayers known to
                                                               have claimed the Credit for a future home purchase have actually purchased a
                                                               home.
                                                    06/15/10   F-1, R-2, P-1. Perform a review to determine the extent to which these
                                                               improper claims occurred on paper-filed returns.
                                                    06/15/10   F-2, R-1, P-1. Initiate actions to recover the First-Time Homebuyer Credit,
                                                               when appropriate, from taxpayers who had previously claimed the
                                                               Residential Energy Credit, the District of Columbia First-Time Homebuyer
                                                               Credit, or the Mortgage Interest Credit on their individual income tax returns,
                                                               and develop a plan to review the other questionable claims that were
                                                               processed prior to the implementation of IRS filters.
                                                    06/15/10   F-4, R-1, P-1. Monitor the accounts of taxpayers known to have purchased
                                                               homes in Calendar Year 2009 who claimed First-Time Homebuyer Credits
                                                               of $7,500 to determine if the taxpayers amended their returns.




 74                                  October 1, 2009 - March 31, 2010
                         TIGTA Semiannual Report to Congress



                             Other Statistical Reports 

              The Inspector General Act of 1978 requires Inspectors General
                             to address the following issues:

                        Issue                                         Result for TIGTA

Access to Information
Report unreasonable refusals of information            As of March 31, 2010, there were no instances
available to the agency that relate to programs and    where information or assistance requested by
operations for which the Inspector General has         the Office of Audit was refused.
responsibilities.


Disputed Audit Recommendations
                                                       As of March 31, 2010, there were no instances
Provide information on significant management
                                                       where significant recommendations were
decisions in response to audit recommendations with
                                                       disputed.
which the Inspector General disagrees.


Revised Management Decisions
Provide a description and explanation of the reasons   As of March 31, 2010, no significant
for any significant revised management decisions       management decisions were revised.
made during the reporting period.


Audit Reports Issued in the Prior Reporting
Period With No Management Response
                                                       As of March 31, 2010, there were no prior
Provide a summary of each audit report issued
                                                       reports where management’s response was not
before the beginning of the current reporting period
                                                       received.
for which no management response has been
received by the end of the current reporting period.



Review of Legislation and Regulations
                                                       TIGTA’s Office of Chief Counsel reviewed 303
Review existing and proposed legislation and
                                                       proposed regulations and legislative requests
regulations, and make recommendations concerning
                                                       during this reporting period.
the impact of such legislation or regulations.




                             October 1, 2009 - March 31, 2010                                   75
     TIGTA Semiannual Report to Congress




76    October 1, 2009 - March 31, 2010
                           TIGTA Semiannual Report to Congress



                                          Appendix II 

                              Audit Products 

                     October 1, 2009 – March 31, 2010 

                       Inspector General Congressional Testimony
Reference Number                                  Hearing Title
              October 2009
                   Inspector General Testimony before U.S. House of Representatives Subcommittee on Oversight
  2010-OT-006
                   Committee on Ways and Means – First-Time Homebuyer Credit


                                            Audit Products
Reference Number                                  Report Title
               October 2009
                   Treasury Inspector General for Tax Administration – Federal Information Security
  2010-20-004
                   Management Act Report for Fiscal Year 2009
                November 2009
                   Millions of Taxpayers May Be Negatively Affected by the Reduced Withholding Associated
  2010-41-002
                   With the Making Work Pay Credit
                   While Effective Actions Have Been Taken to Address Previously Reported Weaknesses in the
  2010-20-003      Protection of Federal Tax Information at State Government Agencies, Additional
                   Improvements Are Needed
                   Evaluation of the Internal Revenue Service’s Capability to Ensure Proper Use of Recovery Act
  2010-41-011
                   Funds
                   Progress Has Been Made in Standardizing Processes in the Computing Centers, but Additional
  2010-20-007
                   Improvements Are Needed to Maximize Benefits
                December 2009
  2010-20-001      Reengineering Individual Tax Return Processing Requires Effective Risk Management
                   Individual Taxpayer Identification Numbers Are Being Issued Without Sufficient Supporting
                   Documentation (Revenue Protection: $2,941,352,240; Reliability of Information: 1,590,535
  2010-40-005      Forms W-7 incorrectly input)
                   Additional Process Improvements Are Needed Due to Continued Growth in the Voluntary
  2010-10-012      Correction Program for Retirement Plans
  2010-1C-008      Compliance With Cost Accounting Standard 418, Allocation of Direct and Indirect Costs
  2010-1C-009      Compliance With Cost Accounting Standard 411, Accounting for Acquisition Costs of Material
                   Calendar Year 2009 Forward Pricing Indirect Expense Rates and Calendar Years 2009 Through
  2010-1C-010      2019 Forward Pricing Direct Labor Rates
                January 2010
  2010-30-013       Appropriate Actions Were Taken to Conclude Work on the Private Debt Collection Program
                    Observations About Annual Dollar Limits for American Recovery and Reinvestment Act of
  2010-11-016
                    2009 Bonds
                    Insufficient and Inexperienced Staff Could Reduce the Ability to Detect and Stop Fraudulent
  2010-40-017
                    Refunds
  2010-1C-014       Noncompliance With Cost Accounting Standard 404, Capitalization of Tangible Assets


                               October 1, 2009 - March 31, 2010                                          77
                            TIGTA Semiannual Report to Congress


 2010-1C-015       Fiscal Year 2009 Floor Check and Evaluation of Timekeeping Procedures
                   Additional Actions Are Needed to Realize Benefits of the Tax Exempt and Government
 2010-10-020
                   Entities Reporting and Electronic Examination System
                   Attestation Review of the Internal Revenue Service’s Fiscal Year 2009 Annual Accounting
 2010-10-022
                   of Drug Control Funds and Related Performance
               February 2010
                   Improvements Have Been Made, but Additional Actions Could Ensure That Section 527
                   Political Organizations More Fully Disclose Financial Information (Increased Revenue:
 2010-10-018
                   $5,234,000; Taxpayer Burden: 3,316 taxpayers; Reliability of Information: 22 notices and
                   3,095 report entries)
                   Appeals Has Made Considerable Progress in Its Campus Centralization Efforts, but Some
                   Opportunities Exist for Improvement (Revenue Protection: $35,815 impacting 905
 2010-10-021
                   taxpayers; Taxpayer Burden: 5,116 taxpayers whose cases were not timely acknowledged;
                   Taxpayer Rights and Entitlements: 336 taxpayers not informed of appeal rights)
                  Fiscal Year 2010 Statutory Review of Disclosure of Collection Activity With Respect to
 2010-30-026
                  Joint Returns
                  Significant Tax Issues Are Often Not Addressed During Correspondence Audits of Sole
 2010-30-024
                  Proprietors (Increased Revenue: $82.6 million impacting 6,055 taxpayers)
               March 2010
                   Processing and Monitoring of Balance Due Notice Cases Needs Improvement (Taxpayer
 2010-30-019       Rights and Entitlements: $196,770 and 6,217 taxpayers impacted; Reliability of Information:
                   1,257 notices not verified during inventory)
                   The Internal Revenue Service Is Taking Several Actions to Improve Its Toll-Free Telephone
 2010-40-031
                   Performance for the 2010 Filing Season
                   Lien Determinations Were Untimely or Not Made Appropriately for Over $1.4 Billion in
 2010-30-023
                   Delinquent Taxes (Increased Revenue: $657,681,672 impacting 176,315 taxpayers)
                   Collection Alternatives Were Available to Economically Distressed Taxpayers, but Some
 2010-30-032
                   New Processes Need Improvement (Increased Revenue: 22,631 taxpayers)
                   Improvements Are Needed When Identifying Revenue Officer Casework (Inefficient Use of
 2010-30-029       Resources: $3.9 million; Reliability of Information: 1,657 improperly documented or graded
                   GS-13 cases)
                   Initial Published Guidance for American Recovery and Reinvestment Act of 2009 Bonds Was
 2010-11-035
                   Complete, Accurate, and Consistent
                   Increased Outreach Efforts Could Enhance Taxpayer Awareness of the Benefits of the
                   Qualified Joint Venture Filing Option (Taxpayer Burden: 40,000 taxpayers required to spend
 2010-40-034       additional time and cost to prepare forms; Taxpayer Rights and Entitlements: 350,000
                   spousal taxpayers that did not receive Social Security Credit for their portion of self-
                   employment income)
                   Collection Employees Adhered to Fair Tax Collection Practices From January 2009
 2010-10-037
                   Through September 2009 (Reliability of Information: 1 case miscoded as a violation)
 2010-20-027       Additional Security Is Needed for Access to the Registered User Portal
                   Employment Tax Compliance Could Be Improved With Better Coordination and
 2010-30-025       Information Sharing (Increased Revenue: $131.1 million and 74,068 taxpayers; Taxpayer
                   Burden: 8 taxpayers received untimely responses)
                   Withholding Compliance Program Results Are Trending Favorably, but Program
                   Enhancements Are Needed (Increased Revenue: $637.1 million; Taxpayer Burden: 183,185
 2010-40-030       taxpayers and employers receiving unnecessary lock-in letters)




78                           October 1, 2009 - March 31, 2010
                     TIGTA Semiannual Report to Congress


              The Automated Substitute for Return Program Brings Some Taxpayers Into Compliance;
2010-40-033   However, Program Enhancements Are Needed (Increased Revenue: 82,566 cases;
              Inefficient Use of Resources: 14,600 cases)
              Criminal Investigation Division Resources Devoted to Supporting Recommended
2010-30-036
              Prosecutions Can Be Enhanced With a Stronger Strategic Focus
              Internal Accounting Errors Reduced the Federal Funding Available for Unemployment
2010-10-039   Benefits by $63 Million During Fiscal Years 2005 Through 2009 (Funds Put to Better Use:
              $69,989,070)
              Procedures Need to Be Developed for Collection Issues Associated With Individual
2010-40-040   Taxpayer Identification Numbers (Taxpayer Privacy and Security: 114,812 taxpayers whose
              names and Social Security Numbers could be used by ITIN tax filers)
              A Service-wide Strategy Is Needed to Address Growing Noncompliance With Individual
2010-40-043   Retirement Account Contribution and Distribution Requirements (Increased Revenue:
              $405.1 million impacting 550,639 taxpayers)
2010-20-028   Additional Security Controls Are Needed to Protect the Automated Collection System
2010-1C-038   Compliance With Cost Accounting Standard 404, Capitalization of Tangible Assets
              The Screening and Monitoring of e-file Providers Has Improved, but More Work Is Needed
2010-40-042   to Ensure the Integrity of the e-file Program (Reliability of Information: 111,733 e-file
              Providers not properly validated)
              Telephone Authentication Practices Need Improvements to Better Prevent Unauthorized
2010-40-045   Disclosures (Taxpayer Privacy and Security: 44,067 taxpayers at risk; Inefficient Use of
              Resources: $30,310,560)
2010-41-047   Interim Results of the 2010 Filing Season




                        October 1, 2009 - March 31, 2010                                         79
     TIGTA Semiannual Report to Congress




80    October 1, 2009 - March 31, 2010
                                 TIGTA Semiannual Report to Congress



                                               Appendix III 

                 TIGTA’s Statutory Reporting Requirements 

TIGTA issued six audit reports required by statute dealing with the adequacy and security of IRS
technology during this reporting period. In FY 2010, TIGTA is working toward completing its
twelfth round of statutory reviews that are required annually by the IRS Restructuring and Reform
Act of 1998 (RRA 98). It also is working on completing its annual review of the Federal Financial
Management Improvement Act of 1996, and it has completed its annual review of the Office of
National Drug Control Policy Detailed Accounting Submission and Assertions. The following table
reflects the FY 2010 statutory reviews.



      Reference to                  Explanation of the
                                                                           Comments/TIGTA Audit Status
   Statutory Coverage                   Provision

Enforcement Statistics             Requires TIGTA to evaluate      Audit fieldwork in progress
                                   the IRS’s compliance with
Internal Revenue Code (I.R.C.)     restrictions under section
§ 7803(d)(1)(A)(i)                 1204 of RRA 98 on the use
                                   of enforcement statistics to
                                   evaluate IRS employees.




Restrictions on Directly           Requires TIGTA to evaluate
Contacting Taxpayers               the IRS’s compliance with
                                                                   Audit in report writing phase
                                   restrictions under I.R.C.
I.R.C.                             § 7521 on directly contacting
§ 7803(d)(1)(A)(ii)                taxpayers who have indicated
                                   they prefer their
                                   representatives be contacted.




Filing of a Notice of Lien         Requires TIGTA to evaluate      Audit in report writing phase
                                   the IRS’s compliance with
I.R.C.                             required procedures under
§ 7803(d)(1)(A)(iii)               I.R.C. § 6320 upon the filing
                                   of a notice of lien.




                                   October 1, 2009 - March 31, 2010                                  81
                                  TIGTA Semiannual Report to Congress



      Reference to                 Explanation of the
                                                                            Comments/TIGTA Audit Status
   Statutory Coverage                  Provision

Extensions of the Statute of      Requires TIGTA to include         Audit fieldwork in progress
Limitations for Assessment of     information regarding
Tax                               extensions of the statute of
                                  limitations for assessment of
I.R.C.                            tax under I.R.C. § 6501 and
§ 7803(d)(1)(C)                   the provision of notices to
                                  taxpayers regarding the right
I.R.C.                            to refuse or limit the
§ 6501(c)(4)(B)                   extension to particular issues
                                  or a particular period of
                                  time.


Levies                            Requires TIGTA to evaluate        Audit in report writing phase
                                  the IRS’s compliance with
I.R.C.                            required procedures under
§ 7803(d)(1)(A)(iv)               I.R.C. § 6330 regarding
                                  levies.



Collection Due Process            Requires TIGTA to evaluate        Audit fieldwork in progress
                                  the IRS’s compliance with
I.R.C.                            required procedures under
§ 7803(d)(1)(A)(iii) and (iv)     I.R.C. §§ 6320 and 6330
                                  regarding the taxpayers’ rights
                                  to appeal lien or levy actions.




Seizures                          Requires TIGTA to evaluate        Audit in report writing phase
                                  the IRS’s compliance with
I.R.C.                            required procedures under
§ 7803(d)(1)(A)(iv)               I.R.C. §§ 6330 through 6344
                                  when conducting seizures.



Taxpayer Designations – Illegal   An evaluation of the IRS’s        Audit fieldwork in progress
Tax Protester Designation and     compliance with restrictions
Nonfiler Designation              under section 3707 of RRA
                                  98 on the designation of
I.R.C.                            taxpayers.
§ 7803(d)(1)(A)(v)




82                                 October 1, 2009 - March 31, 2010
                                   TIGTA Semiannual Report to Congress



      Reference to                    Explanation of the
                                                                              Comments/TIGTA Audit Status
   Statutory Coverage                     Provision

Disclosure of Collection             Requires TIGTA to review          Reference No. 2010-30-026, February 2010
Activities With Respect to Joint     and certify whether the IRS is    IRS procedures provide employees with sufficient guidance
Returns                              complying with I.R.C.             for handling joint-filer collection activity information
                                     § 6103(e)(8) to disclose          requests. However, TIGTA could not determine whether the
I.R.C.                               information to an individual      IRS fully complied with I.R.C. § 6103(e)(8) requirements
§ 7803(d)(1)(B)                      filing a joint return on          when responding to all written information requests from
                                     collection activity involving     joint filers. IRS management information systems do not
I.R.C.                               the other individual filing the   separately record or monitor joint filer requests, and there is
§ 6103(e)(8)                         return.                           no legal requirement for the IRS to do so. TIGTA does not
                                                                       recommend the creation of a separate tracking system.


Taxpayer Complaints                  Requires TIGTA to include in      Statistical results on the number of taxpayer
                                     each of its Semiannual            complaints received are shown on page 65.
I.R.C.                               Reports to Congress the
§ 7803(d)(2)(A)                      number of taxpayer
                                     complaints received and the
                                     number of employee
                                     misconduct and taxpayer
                                     abuse allegations received by
                                     IRS or TIGTA from
                                     taxpayers, IRS employees and
                                     other sources.


Administrative or Civil Actions      Requires TIGTA to include         Reference No. 2010-10-037, March 2010
With Respect to the Fair Tax         information regarding any         The Fair Tax Collection Practices (FTCP) provisions of
Collection Practices Act of 1996     administrative or civil actions   I.R.C. § 6304 prohibit employees from using abusive or
                                     with respect to violations of     harassing behavior toward taxpayers when attempting to
I.R.C.                               the fair debt collection          collect taxes. Employees who are found to have violated the
§ 7803(d)(1)(G)                      provision of I.R.C. § 6304,       FTCP could be subject to disciplinary action. From January
                                     including a summary of such       through September 2009, IRS Collection employees did not
I.R.C.                               actions, and any resulting        violate the FTCP statute. The IRS coded only three cases as
§ 6304                               judgments or awards granted.      FTCP complaints; however, two cases were not
Section 3466 of RRA 98                                                 substantiated as FTCP violations while the other was
                                                                       improperly coded as an FTCP case. TIGTA recommended
                                                                       that the miscoding be fixed during the audit and the IRS
                                                                       corrected the miscoding. In addition, no civil actions
                                                                       resulted in the payment of monetary settlements to taxpayers
                                                                       because of an FTCP violation. As a result, taxpayers have
                                                                       reasonable assurance that communications with the IRS in
                                                                       connection with the collection of unpaid taxes generally did
                                                                       not violate the FTCP statute.




                                     October 1, 2009 - March 31, 2010                                                        83
                                     TIGTA Semiannual Report to Congress



      Reference to                    Explanation of the
                                                                             Comments/TIGTA Audit Status
   Statutory Coverage                     Provision

Denial of Requests for               Requires TIGTA to include
Information                          information regarding
                                                                      Audit fieldwork in progress
                                     improper denial of requests
I.R.C.                               for information from the IRS,
§ 7803(d)(1)(F)                      based on a statistically valid
                                     sample of the total number of
I.R.C.                               determinations made by the
§ 7803(d)(3)(A)                      IRS to deny written requests
                                     to disclose information to
                                     taxpayers on the basis of
                                     I.R.C. § 6103 or 5 U.S.C.
                                     § 552(b)(7).


Adequacy and Security of the         Requires TIGTA to evaluate       Information Technology Reviews:
Technology of the IRS                the IRS’s adequacy and           Reference Number 2010-20-007, November 2009
                                     security of its technology.      Reference Number 2010-20-001, December 2009
I.R.C.
§ 7803(d)(1)(D)                                                       Security Reviews:
                                                                      Reference Number 2010-20-004, October 2009
                                                                      Reference Number 2010-20-003, November 2009
                                                                      Reference Number 2010-20-027, March 2010
                                                                      Reference Number 2010-20-028, March 2010


Federal Financial Management         Requires TIGTA to evaluate       Audit in report writing phase
Improvement Act of 1996              the financial management
(FFMIA)                              systems to ensure compliance
                                     with Federal requirements, or
31 U.S.C. § 3512                     establishment of a
                                     remediation plan with
                                     resources, remedies, and
                                     intermediate target dates to
                                     bring the IRS into substantial
                                     compliance.




Office of National Drug Control      Requires TIGTA to                Reference No. 2010-10-022, January 2010
Policy Detailed Accounting           authenticate the IRS’s           TIGTA reviewed the IRS’s ONDCP Detailed Accounting
Submission and Assertions            Office of National Drug          Submission and Performance Summary Report for FY 2009,
                                     Control Policy (ONDCP)           which ended September 30, 2009. The IRS is responsible
National Drug Enforcement Policy     detailed accounting              for preparing this report. Based on the review, nothing came
21 U.S.C. § 1704(d) and the Office   submission and assertions.       to TIGTA’s attention that caused it to believe that the
of National Drug Control Policy                                       assertions in the Report were not presented in all material
Circular entitled Annual                                              respects in accordance with ONDCP-established criteria.
Accounting of Drug Control Funds,                                     The IRS reported that it expended $60.6 million on
dated April 18, 2003.                                                 ONDCP-related activities and completed 652 ONDCP-
                                                                      related investigations in FY 2009. For FY 2009, the IRS
                                                                      also reported it participated in 462 ONDCP-related cases
                                                                      that resulted in convictions.




84                                    October 1, 2009 - March 31, 2010
                             TIGTA Semiannual Report to Congress



                                           Appendix IV 

                                  Section 1203 Standards 

In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS employee if there
is a final administrative or judicial determination that, in the performance of official duties, such employee
committed any misconduct violations outlined below. Such termination shall be a removal for cause on charges
of misconduct.

Misconduct violations include:

    •	 Willfully failing to obtain the required approval signatures on documents authorizing the seizure of a
       taxpayer’s home, personal belongings, or business assets;
    •	 Providing a false statement under oath with respect to a material matter involving a taxpayer or taxpayer
       representative;
    •	 Violating, with respect to a taxpayer, taxpayer representative, or other employee of the IRS, any right
       under the Constitution of the United States, or any civil right established under Title VI or VII of the
       Civil Rights Act of 1964; Title IX of the Education Amendments of 1972; Age Discrimination in
       Employment Act of 1967; Age Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation Act
       of 1973; or Title I of the Americans with Disabilities Act of 1990;
    •	 Falsifying or destroying documents to conceal mistakes made by any employee with respect to a
       matter involving a taxpayer or taxpayer representative;
    •	 Committing assault or battery on a taxpayer, taxpayer representative, or other employee of the
       IRS, but only if there is a criminal conviction or a final judgment by a court in a civil case, with
       respect to the assault or battery;
    •	 Violating the Internal Revenue Code of 1986, as amended (the Code), Treasury regulations, or policies
       of the IRS (including the Internal Revenue Manual) for the purpose of retaliating against or harassing a
       taxpayer, taxpayer representative, or other employee of the IRS;
    •	 Willfully misusing provisions of Section 6103 of the Code for the purpose of concealing information
       from a congressional inquiry;
    •	 Willfully failing to file any return of tax required under the Code on or before the date prescribed
       therefore (including any extensions), unless such failure is due to reasonable cause and not to willful
       neglect;
    •	 Willfully understating Federal tax liability, unless such understatement is due to reasonable cause and not
       to willful neglect; and
    •	 Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct violations
outlined above. The exercise of this authority shall be at the sole discretion of the Commissioner and may
not be delegated to any other officer. The Commissioner, in his/her sole discretion, may establish a
procedure that will be used to decide whether an individual should be referred to the Commissioner for
determination. Any mitigation determination by the Commissioner in these matters may not be appealed
in any administrative or judicial proceeding.



                                 October 1, 2009 - March 31, 2010                                          85
     TIGTA Semiannual Report to Congress




86    October 1, 2009 - March 31, 2010
                        TIGTA Semiannual Report to Congress



                                    Appendix V 

                    Data Tables Provided by the IRS 

The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow the
memorandum contain information as provided by the IRS to TIGTA and consist of IRS
employee misconduct reports from the IRS Automated Labor and Employee Relations Tracking
System (ALERTS) for the period from October 1, 2009, through March 31, 2010. Also, data
concerning substantiated IRS Restructuring and Reform Act of 1998 Section 1203 allegations for
the same period are included. IRS management conducted inquiries into the cases reflected in
these tables.




                           October 1, 2009 - March 31, 2010                             87
                               TIGTA Semiannual Report to Congress


                        Reports of Employee Misconduct for the Period 

                          October 1, 2009 through March 31, 2010 

                               Summary by Disposition Groups 

                                 (Table Provided by the IRS) 



          Disposition              TIGTA            Administrative      Employee        Background        Totals
                                Investigations         Cases              Tax          Investigations
                                                                         Matter
                                                                         Cases
     Removal                                  39                   70              2                46       157
     Separation of                             7                   50              6                66       129
     Probationary Employees
     Separation of Temporary                                        7              4                  3       14
     Employees
     Resignation/Retirement                   64                  100            33                 51       248
     Suspensions                             131                  249            72                  2       454
     Reprimands                              131                  403           328                 30       892
     Counseling                                                   266           709                156     1,131
     Alternative Discipline                   26                   78            21                  3       128
     Clearance                                85                  143             4                          232
     Closed Without Action                   198                  277            94                491     1,060
     Closed Without Action                   183                  170            95                343       791
     (Caution Statement)
     Forwarded to TIGTA                                             7              2                               9
     NO ACTION APPEAL                          1                    2                                              3
     Suspended – Waiting                       3                                                                   3
     Supplemental
     Termination for                                               45                                         45
     Abandonment of Position
     Termination for Other                                          1                                              1
     Than Job Abandonment
     Case Suspended Pending                    3                    2              1                  1            7
     Employee Return to Duty
     Prosecution Pending for                   4                                                                   4
     TIGTA ROI’s
     Total                                   875                1,870         1,371              1,192     5,308


Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115­
01, January 14, 1999
Extract Date: Friday, April 02, 2010        Report ID = T1R3a




88                              October 1, 2009 - March 31, 2010
                            TIGTA Semiannual Report to Congress


                        Reports of Employee Misconduct for the Period 

                           October 1, 2009 through April 30, 2010 

                                     National Summary

                                 (Table Provided by the IRS)



                                                                      Cases Closed
                                        Conduct
       Inventory        Opening                                                                       Closing
                                         Cases                                           Non-
       Case Type       Inventory                        Conduct                                      Inventory
                                        Received                       Duplicates      Conduct
                                                         Issues
                                                                                        Issues


    TIGTA
    Investigations
        1
    ROI                         562             803          (875)               (0)           (1)              489

    Administrative
        2
    Case                        664           1,961         (1,870)             (19)           (5)              731

    Employee Tax
                   3
    Compliance Case             481           1,378         (1,371)             (25)           (0)              463

    Background
                  4
    Investigations              584             961         (1,192)              (3)           (1)              349

    Total                    2,291            5,103        (5,308)             (47)            (7)             2,032


Source: Automated Labor and Employee Relations Tracking System (ALERTS) 

This report is being produced in accordance with 26 USC 7803(d)(2) and § 4(a)2 of Treasury Delegation Order

115-01, January 14, 1999

Extract Date: Friday, April 02, 2010        Report ID = T1R1





1
  TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an investigation 

into alleged misconduct and referred a Report of Investigation (ROI) to IRS for appropriate action. 

2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged

misconduct.

3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance 

program which becomes a matter of official interest. 

4
  Background Investigation - Any matter involving an NBIC investigation into an employee’s background that is 

referred to management for appropriate action.




                                October 1, 2009 - March 31, 2010                                         89
                                    TIGTA Semiannual Report to Congress


                         Summary of Substantiated I.R.C. § 1203 Allegations 

                              Recorded in ALERTS for the Period 

                             October 1, 2009 through April 30, 2010 

                                   (Table Provided by the IRS)


                                                                    Removed
                                     Resigned/       Probation                      Penalty        In Personnel
§ 1203 Violation     Removals                                       On Other                                           Total
                                      Retired        Separation                    Mitigated1         Process
                                                                    Grounds


Seizure Without
Approval                        0                0             0               0              0                0           0
False Statement
Under Oath                      0                0             0               0              1                1           1
Constitutional &
Civil Rights
Issues                          1                0             0               1              1                0           3
Falsifying or
Destroying
Records                         0                0             0               2              2                0           4
Assault or
Battery                         0                0             0               1              0                0           1
Retaliate or
Harass                          0                0             0               2              1                0           3
Misuse of § 6103                0                0             0               0              0                0           0
Failure to File
Federal Tax
Return                          0                1             0               1             12               14          28
Understatement
of Federal Tax
Liability                       3                6             0               7             18               17          51
Threat to Audit
for Personal
Gain                            0                0             0               0              2                0           2

Totals                         4               7               0             14              37               31          93
   Notes:
   1. The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third party appeal.

   Source: Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review Board
   records.
   Extract Date: Friday, April 02, 2010




   90                                October 1, 2009 - March 31, 2010
                        TIGTA Semiannual Report to Congress



                           Glossary of Acronyms 

ACS                       Automated Collection System
ARRA                      American Recovery and Reinvestment Act of 2009
CCID                      Contract Fraud & Criminal Intelligence Division
CID                       Criminal Investigation Division
CO                        Contracting Officer
COTR                      Contracting Officer’s Technical Representative
CPA                       Certified Public Accountant
DOD                       Department of Defense
E-file                    Electronically File
EO                        Exempt Organizations
EITC                      Earned Income Tax Credit
FECA                      Federal Employees’ Compensation Act
FISMA                     Federal Information Security Management Act
FTB                       Franchise Tax Board
FTCP                      Fair Tax Collection Practices
FY                        Fiscal Year
GPRA                      Government Performance and Results Act
I&E                       Inspections and Evaluations
IDRS                      Integrated Data Retrieval System
IG                        Inspector General
IRA                       Individual Retirement Account
IRC                       Internal Revenue Code
IRS                       Internal Revenue Service
ITIN                      Individual Taxpayer Identification Number
Liens                     Federal Tax Liens
Modernization Program     Business Systems Modernization Program
OA                        Office of Audit
OGE                       Office of Government Ethics
OI                        Office of Investigations
OMB                       Office of Management and Budget
ONDCP                     Office of National Drug Control Policy
QRP                       Questionable Refund Program
Recovery Act              The American Recovery and Reinvestment Act
RRA 98                    IRS Restructuring and Reform Act of 1998
RUP                       Registered User Portal
SED                       Strategic Enforcement Division
SFRs                      Substitute for Returns
TE/GE                     Tax Exempt and Government Entities
The Credit                First-Time Homebuyer Credit
TIGTA                     Treasury Inspector General for Tax Administration



                          October 1, 2009 - March 31, 2010                    91
        TIGTA Semiannual Report to Congress


TREES   Tax Exempt and Government Entities Reporting and
        Electronic Examination System
UCC     Uniform Commercial Code
U.S.    United States
UNAX    Unauthorized Access
VCP     Voluntary Correction Program




92       October 1, 2009 - March 31, 2010
TIGTA Semiannual Report to Congress




  October 1, 2009 - March 31, 2010    93
     TIGTA Semiannual Report to Congress




94    October 1, 2009 - March 31, 2010
